<html>
<title> - A PROGRESS REPORT ON THE REFORMS IN D.C. PUBLIC SCHOOLS</title>
<body><pre>[Senate Hearing 105-364]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-364


 
        A PROGRESS REPORT ON THE REFORMS IN D.C. PUBLIC SCHOOLS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 8, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                        U.S. GOVERNMENT PRINTING OFFICE
 44-136 cc                     WASHINGTON : 1998
_______________________________________________________________________
               For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI,
BOB SMITH, New Hampshire               New Jersey
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1

                               WITNESSES
                       Monday, September 8, 1997

Hon. Richard K. Armey, Majority Leader, U.S. House of 
  Representatives................................................     3
Jeanne Allen, President, tHE Center for Education Reform.........    10
Nina Shokraii, Education Policy Analyst, Domestic Policy Studies, 
  The Heritage Foundation........................................    14
Kent B. Amos, President, Urban Family Institute..................    16
Bruce K. MacLaury, Chairman, Emergency Transition Education Board 
  of Trustees, District of Columbia Public Schools...............    26
General Julius W. Becton, Jr., (Retired), Chief Executive Officer 
  and Superintendent, District of Columbia Public Schools, 
  accompanied by Major General Charles Williams, (Retired), Chief 
  Operating Officer..............................................    28

                     Alphabetical List of Witnesses

Allen, Jeanne:
    Testimony....................................................    10
    Prepared statement with an attachment........................    51
Amos, Kent B.:
    Testimony....................................................    16
    Prepared statement...........................................    81
Armey, Hon. Richard:
    Testimony....................................................     3
    Prepared statement...........................................    43
Becton, General Julius W., Jr.:
    Testimony....................................................    28
    Prepared statement with attachments..........................    88
MacLaury, Bruce K.:
    Testimony....................................................    26
    Prepared statement...........................................    83
Skokraii, Nina:
    Testimony....................................................    14
    Prepared statement with an attachment........................    62

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    43



        A PROGRESS REPORT ON THE REFORMS IN D.C. PUBLIC SCHOOLS

                              ----------                              


                       MONDAY, SEPTEMBER 8, 1997

                                             U.S. Senate,  
         Oversight of Government Management, Restructuring,
                       and the District of Columbia Subcommittee,  
                          of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.
    Staff Present: Ron Utt, Staff Director; and Esmerelda Amos, 
Chief Clerk, and Joyce Yamat, Professional Staff Member.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. I call the hearing to order.
    I would like to welcome everyone to our second hearing on 
the District of Columbia public schools. This hearing is timely 
as the 1997-98 school year will soon begin. The purpose of this 
hearing is to hear about the progress of the education reforms 
of the District's public schools.
    The Subcommittee would like to revisit many of the issues 
that were raised in our last education hearing which was held 
on April 17 and hear about the progress made on these various 
reforms. We would also like to examine the issue of management 
in the District of Columbia public schools. There is definitely 
no shortage of improvement opportunities in management when it 
comes to the D.C. public schools. But the central office has 
implemented changes, and I am anxious to hear what improvements 
have been made and what we can expect in the upcoming school 
year.
    I am also pleased to see that the charter school 
application process is underway. Since enactment of the charter 
school legislation in the last Congress, however, the District 
has only two charter schools. There is obviously plenty more to 
be done.
    At our last D.C. education hearing, one idea that was 
raised was for D.C. public schools to take advantage of the 
resources of the Federal Government and the expertise, such as 
the Smithsonian museums. I am interested to see if the D.C. 
public schools are using these opportunities and if the Federal 
agencies are helping them to do that.
    We just received this morning word that of the seven 
agencies in the Federal Government asked to help the District 
with establishing and working toward charter schools, only two 
have responded; we need a lot more response and help from the 
Federal Government and the Federal agencies.
    On the issue of school choice, I am a cosponsor of 
legislation, that is, S. 487--and we will hear about companion 
legislation from the House shortly--that would provide 
scholarships to low-income students who choose to get a quality 
education at a private school. Every child has a right to 
quality education. If they are being denied that right in their 
public schools, they must be given the option to make sure they 
receive the quality education they deserve. That is a 
fundamental and a paramount right. If people are to be able to 
experience the fullness of education and be able to make the 
most of themselves, they need to have access to a quality 
education. A bureaucracy may be able to wait years for its 
improvements to take place, but a child, however, cannot. They 
have to receive that quality education when they are in the 
school system.
    In 2 years, first and second-graders learn the basics of 
reading and mathematics. We cannot put off learning basic 
reading and mathematics skills for those children. S. 847 would 
provide an immediate option to maintain these learning 
standards for children during the 2 years of improvement.
    I would like to thank all of our witnesses for coming to 
testify at today's hearing, and I just want to say as well as I 
conclude my opening remarks that I am very concerned about 
where we are on District of Columbia public education. In the 
reconciliation bill that just went through Congress, we did a 
lot on improving the District of Columbia. We addressed the tax 
issue; we put in zero capital gains for property held for 5 
years; first-time homebuyers. There has been a lot done on the 
crime issue in the District of Columbia. I think there is more 
that needs to take place. We need to address the management 
issue in the District of Columbia. There is a lot of 
consternation and concern, but there are a lot of needs to 
manage better in the District of Columbia.
    I think some of the fundamentals are being addressed--of 
crime, of growth--but the one that we have not adequately 
addressed yet is education, public education. And that is my 
deep concern and commitment, that we need to move forward for 
the D.C. public schools for the children. They just are not 
getting the chance for the quality education that they need to 
have. That is what we want to examine at this hearing, and I 
have a number of questions for our witnesses, particularly for 
General Becton, on running the schools.
    Our first witness is the Majority Leader of the U.S. House 
of Representatives, who has been following and working on this 
issue for some period of time, and I am delighted to have 
Representative Dick Armey here to testify.
    Representative Armey, thank you for coming over to this 
side of the Hill and testifying. I look forward to your 
presentation and a few questions.
    Please proceed.

 TESTIMONY OF HON. RICHARD K. ARMEY,\1\ MAJORITY LEADER, U.S. 
                    HOUSE OF REPRESENTATIVES

    Mr. Armey. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here, and I appreciate the fact that you are 
holding these hearings. I want to especially thank you for the 
opportunity to talk about the question of education in 
Washington, D.C.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Armey appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    As you know, I am a sponsor of school choice legislation 
for D.C., which will soon be taken up in our own body in the 
appropriations process. I have long been a supporter of the 
concept of choice for families in the education of their 
children. But I have to tell you that this current effort that 
I am working on has brought me into closer contact with the 
real families and the real children than I have been in other 
efforts.
    And you are absolutely right when you put the emphasis as 
you do on the children. One of the things that I have learned 
in the last few days is that Washington is a city full of 
beautiful children, and every one of these children have a 
once-in-a-lifetime period in which they should and must get 
their education. It is so critical that we understand that for 
each individual child, it is now.
    And as George Allen--a person that we in Dallas do not 
always quote--I mean Coach George Allen--used to say, ``the 
future is now,'' and never is that more true than when you look 
into the face of a beautiful child looking for his or her 
chance to get through the third grade this year, because they 
know that this is the year to do so.
    I would like to talk about that in some more personal terms 
without naming any names. I want to tell a true story about an 
African-American family living in Anacostia. Through the 
generosity of some anonymous donors, six children in this 
family began attending a Catholic school in the District of 
Columbia last week. Up until now, they had attended the city's 
public schools, and if they were still attending the city's 
public schools, they would not have been in school last week.
    The oldest child is 13 and should be starting his freshman 
year in high school. Instead, he is starting the 7th grade. He 
has tested at the Catholic school and is actually only reading 
at about a 5th grade level. At 13 years old, this young man is 
already 4 years behind in school and on the verge of being a 
lifetime behind.
    The next child is a 10-year-old girl. Although she tested 
half a grade level behind, the principal at the school agreed 
not to hold her back; last week, she began the 5th grade.
    Also attending the Catholic school is a friendly 9-year-old 
boy. Until a few volunteers took him under their wings 6 months 
ago, this boy could not read. Halfway through the 3rd grade in 
D.C. public schools, he could barely read a word on a page. 
Because of volunteer help 2 or 3 days a week over the past 6 
months, his reading level has improved to the 2nd grade level. 
Even though he should be attending the 4th grade, he will be 
repeating the 3rd grade. The principal only agreed to hold him 
back just one grade when provided with a firm commitment that 
the intensive tutoring would continue. And I must say I know 
the child and I know the tutors, and I know that they made a 
commitment that has been convincing to this principal.
    Joining the young boy in 3rd grade will be his very bright 
8-year-old sister, the only one of the six children who did not 
test behind. Also attending the school will be a 3-year-old and 
a 4-year-old.
    If you will, I would like to take a moment to talk about 
the future of these children. The young man repeating the 3rd 
grade is an extremely kind and friendly child, but what will 
his future look like if he continues to go to school and 
continues to fall behind? He would become bored in class and 
begin to disturb the other students. His self-esteem would 
deteriorate, and eventually, he would conclude that he cannot 
compete in school. Unable to read, he would drop out. In 
today's economy, what future would this young man have?
    Fortunately, these six children are now attending a school 
that has an excellent record of success. Most of the students 
who graduate from this elementary school go on to succeed in a 
private high school, and from there, most go on to college. 
Their new school is already producing results. Attitudes have 
changed, both among the children and their parents. The 
children are more excited to learn, and their parents are more 
engaged in the children's education. Because of the opportunity 
they have been given, these precious children are now going to 
become something more than just statistics.
    Mr. Chairman, some people may listen to me and complain 
that I am guilty of argument by anecdote. Let us look at the 
facts and see if the family that I have just discussed is 
representative of what is really happening in our Nation's 
Capital.
    In the family I mentioned, of the four children who are 
beyond kindergarten age, three of the four test below grade 
level. According to The Washington Post, among D.C. public 
students as a whole, 65 percent test below their grade level. 
In 1974, 72 percent of 4th graders in D.C. public schools 
tested below basic proficiency on the National Assessment of 
Education Progress. Even many students who graduate have little 
to show for their diplomas. Eighty-five percent of D.C. public 
schools students who enter the University of the District of 
Columbia need 2 years of remedial education before beginning 
their course work toward their degree. A majority of public 
school graduates who take the U.S. Armed Forces qualification 
test fail it.
    What is worse, about 40 percent of District children who 
enter the public schools never graduate at all. Unable to 
compete in our economy, many end up on welfare or in prison. A 
report released in August showed that at any given time, 
virtually half of all black men in Washington, D.C. age 18 to 
35 are either incarcerated, on parole or on probation, awaiting 
trial or being sought on an arrest warrant.
    We simply cannot continue to allow our young people to 
become nothing other than grim statistics. I have supported 
efforts to improve the public schools in the District. I have 
met with General Becton, and I believe he is committed to a 
genuine reforming and improvement of the public schools. I 
support the strong charter school law created by Congress which 
allows for creative and successful charter schools.
    I might also add that even though per pupil spending levels 
are already among the highest in the Nation, Congress has 
nevertheless provided more funding for the public school 
system. But we need to do more. We must do something to help 
the thousands of children like the ones I have described today 
whose future depends on getting out of failing schools, not in 
10 years, not in 5 years, but today.
    That is why I have introduced bipartisan legislation that 
would provide Opportunity Scholarships to low-income District 
residents. Under the legislation, which was introduced in the 
Senate by Senators Coats, Lieberman and the Chairman of this 
Subcommittee, about 2,000 children would be eligible for a 
scholarship of up to $3,200. The scholarship could be used to 
attend the public, private, or religious school of the parents' 
choosing; it would also provide up to $500 in tutoring 
assistance to about 2,000 public school students.
    Not only will the scholarships give 2,000 children a chance 
to attend a better school immediately; they will also help 
improve the public schools. The only way the public school 
bureaucracy will be reformed is through the discipline and 
accountability that competition will provide.
    Let me quote Howard Fuller, the former superintendent of 
Milwaukee's public schools: ``If you are in a system, as I was 
as a superintendent, demanding change, but everyone there is 
clear that whether a single child learns or not, everyone is 
going to get paid, if everybody is clear that in schools that 
have never educated kids, each year you are going to put more 
kids in there, there is not one single thing I can do about it, 
and all the rhetoric in the world is not going to change that. 
What I am saying is simply this, I think you have to have a 
series of options for parents. I support charter schools. I 
support site-based management--that is, real site-based 
management. I support anything that changes the options for 
parents. But I am here to say that if one of these options is 
not choice that gives poor parents a way to leave, the kind of 
pressure that you need internally is simply not going to 
occur.''
    Mr. Chairman, in suburban neighborhoods, some pressures for 
positive change exist because middle-class families have the 
resources to take their children out of bad schools and put 
them into private school. Thus, in a limited but important way, 
public schools are forced to compete for students. As a result, 
they frequently overcome bureaucratic inertia and improve.
    According to a recent Washington Post article, a Bethesda 
public school strengthened its curriculum in order to woo back 
to the public schools private school students searching for a 
rigorous education experience. This is the dynamic we must 
create in Anacostia.
    I would like to address two concerns that have been raised 
about my legislation. Some critics of the legislation argue 
that the only students that private schools are interested in 
taking are the brightest and the most privileged--not the low-
income students who are eligible for scholarships under the 
bill.
    A similar strain of this argument is that private schools, 
if they would accept poor children, would take only the 
brightest students and leave the public schools with the 
students who have the greatest need. It is true that some 
exclusive schools like Sidwell Friends, where the President 
sent his child, only accept the best and the brightest; but 
under our legislation, the scholarships are awarded randomly to 
parents and students, not to the schools. Parents have the 
power to choose, not the schools. Parents can cherrypick the 
best schools, not the other way around.
    Most importantly, this argument ignores what is really 
happening in this city--the six children from the family I 
mentioned earlier in my testimony were all accepted by a 
Catholic school in Anacostia, even though most are testing 
below grade level. I went to visit Holy Redeemer Catholic 
School, which is located near North Capitol Street. This school 
is serving the same low-income minority student population as 
attend the public schools. The same is true for the Nanny Helen 
Burroughs School that Senators Coats and Lieberman visited. 
These schools are not exclusives. They are not institutions in 
the posh neighborhoods of Northwest Washington. I challenge 
school choice opponents to look beyond the schools where they 
are sending their own children and look to the dozens of 
schools in poor neighborhoods that are currently serving low-
income, primarily African-American students. The entire mission 
of these schools is to serve the disadvantaged students who 
live in the poor neighborhoods in which they are located.
    Moreover, low-income students are already attending more 
than 60 area schools through scholarships provided by the 
Washington Scholarship Fund. In fact, many of Washington's most 
exclusive private schools have accepted poor students who are 
eligible for the scholarships. The Washington Scholarship Fund, 
which currently serves about 250 children, has a waiting list 
of several hundred children. The waiting list of the Washington 
Scholarship Fund leads me to another concern I hear expressed 
about the scholarship legislation--whether Congress would 
infringe on the District's home rule by providing opportunity 
scholarships.
    The number of children on the Washington Scholarship Fund's 
waiting list demonstrates that the people of Washington, D.C. 
themselves want alternatives to the failing public schools. 
That support is reflected in the polling data. A recent poll 
shows that by a 44 to 31 margin, District residents believe 
that providing scholarships to low-income children is a good 
use of taxpayer dollars. Among families earning less than 
$25,000, 59 percent support the program, while just 17 percent 
oppose it. African-Americans support the idea by a 48 to 29 
margin. Opposition to scholarships is highest among families 
who earn $60,000 or more, most of whom already send their 
children to private schools.
    Mr. Chairman, let me close by returning to the family I 
discussed at the opening of my statement. A child who goes 
through school without learning has the odds stacked against 
him. Most children who go through school without learning 
become grim statistics. We cannot stand by and let that happen 
to another generation of children in our Nation's Capitol. 
Every child in America deserves a safe, quality education and a 
fair chance at the American dream.
    Thank you, Mr. Chairman, and let me just make a final 
personal observation. As you know, my home is in Dallas, Texas. 
I do not live in Washington, D.C. I have never lived in 
Washington, D.C. I will never live in Washington, D.C. My 
grandchildren will not be raised in Washington, DC.
    You could ask why do I trouble myself over this question. 
And I can tell you, Mr. Chairman, it is not out of a concern 
for Washington, D.C. But Washington, D.C. is a city that has 
many very, very beautiful and very precious children, and it is 
just simply not something to be ignored. Each and every one of 
us who has the privilege of working in this city must be 
willing to look into this city and at least look into the eyes 
of these children, and anybody who works on this Hill, in this 
town, who looks into those beautiful brown eyes and can say 
something other than, ``You must have your chance now; you 
cannot be ignored until a system reforms itself; you cannot be 
allowed to be passed over by a system slow in reforming 
itself,'' is failing in his or her duty to those children.
    And I must say that I believe that our duty to those 
children is larger than our duty to this city or to our own 
home cities, wherever they are. And it is, in fact, I think, 
the closest thing to a moral imperative that any of us face in 
this town.
    I would invite anybody who thinks that somehow or another, 
the system may be troubled by this kind of an initiative to 
look beyond the system and to go and look into one of these 
children's eyes. And if you can get by that little 3rd-grader 
who happened to be in my office the other day, and if you can 
spend half an hour with that little guy, and you can come away 
without him owning you in some way, then your heart is too cold 
to work in this city or anyplace else.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Mr. Armey. I 
appreciate very much your testifying and being here today.
    It seems to me it is about the children, and it is also 
about making Washington, D.C. a shining example, which is what 
we are trying to do for it and for the children who go to 
school here.
    Let me ask you, I guess, the most obvious of questions. Why 
is it that with the number of Members of Congress who send 
their children to private schools and have the income and the 
wherewithal to do that, with the statistics you cited of the 
failings of this system toward the children, and with the 
advantages of these scholarships and the bipartisan support for 
this--as you noted, Senator Lieberman, who is also on this 
panel, introduced the same companion legislation--why is there 
resistance to either these scholarships or even to the concept 
of vouchers? It seems to me that the whole situation would say 
that this is the clear answer and the way that we need to go.
    Mr. Armey. Well, I am frustrated by that, too, and it 
strikes me that in politics, sophistry and power are all too 
often compelling influences in the lives of people who are at 
work.
    When I look at one of these little 3rd-graders, I do not 
think they are particularly enamored with the esoteric 
formulations of some Supreme Court constitutional theory. They 
want to know can I go to a school where I will be happy and 
safe, and can I have my bright eyes lit up by the excitement of 
learning.
    I think that all too often, we do not get beyond ourselves 
in this city, and as much as I believe that public choice and 
family choice and the involvement that I see in the parents--I 
met with some parents the other night, and I have to tell you 
that some of these parents are just incredible in the way they 
reach out beyond themselves for these children. The Scholarship 
Fund provides about half the money, and an awful lot of parents 
who have all they can do to just stay up with their current 
needs find a way to reach beyond that and provide the other 
half.
    It is a precious part of the solution, but in the main, the 
solution is to fix the entire D.C. school system. I think 
public choice is part of that process, and I think competition 
helps. I think that once the school system knows that I do not 
have an automatic command and control over who will fill my 
halls, whether they are winning or losing here, they will in 
fact reach out as the school I cited in Maryland did and 
encourage people to come back by demonstrating greater success.
    So I do not want to understate the importance of public 
school choice or school choice in terms of the encouragement it 
gives to public schools to get better and in the end, the 
improvement of the overall performance of the public schools is 
what must be done. I think General Becton is committed to this. 
We have visited about this, and while school choice is a 
precious part of the answer, it is not the full answer. But we 
have an obligation to have our eyes opened to all the answers, 
all parts of the answers, that can be.
    Senator Brownback. General Becton raised a question about 
the scholarship proposal, suggesting that his big concern is a 
lack of accountability in a scholarship type of system. Do you 
have concerns about that in the legislation, whether there is 
going to be sufficient accountability if some of these 
scholarships are used for private institutions?
    Mr. Armey. No, I do not have any concerns about that. We 
have a school system here in this city that has got to be 
understood to be very likely the most tragic failure of any 
school system anyplace in America. I do not think anyone is 
sitting around, worrying about the lack of accountability of 
this system. This system has gone on for too many years without 
people worrying about accountability.
    I have been to the schools, I have seen these children. I 
have seen people who have taken resources that are sometimes as 
little as one-third of the per-child resources, and they have 
turned on these children to learning. I sat in one school, and 
grade after grade after grade, I asked the children, ``What is 
your favorite subject,'' and grade after grade after grade, 
they said, ``Science and math, science and math.''
    I defy you to go into any public school in America and find 
the majority of children in the school saying their favorite 
subject in the 3rd grade is science or math.
    I think people who worry about lack of accountability ought 
to visit the schools, look at the children, see the excitement 
in their young faces, and see the dedication of those teachers. 
I have said it before, and I will say it again--there is 
absolutely nothing more precious than a dedicated, loving 
teacher, and that is what you find here. These people are 
generally teaching and working at salaries that are 
considerably less than they get, and they are in it for the 
love. And for us to think that an abstraction like 
accountability should negate a recognition of their good works 
is, I think, a failure on our part to, in fact, do the job that 
we need to go out and see for ourselves.
    Senator Brownback. Thank you very much for being here with 
us today and for sponsoring this legislation and the suggestion 
that you will be putting it in the appropriations bill coming 
through the House. There will be similar efforts on the Senate 
side as well. I think that it is important legislation to move 
forward.
    Thanks for your leadership, Majority Leader Armey.
    Mr. Armey. Thank you. I might add that I have spoken to the 
Subcommittee on Appropriations that has jurisdiction over the 
city, and I am very confident; I believe they will in fact have 
this legislation in the House. As you know, both the chairman 
of that subcommittee and the ranking Democrat on the 
subcommittee are both in support of the legislation. So I think 
we will have it properly placed in the legislative process, and 
as we gain public recognition and understanding of the value of 
this in the lives of the children, we will be able to take 
ourselves beyond the needs of systems and institutions and get 
to the ground we must stand on.
    I thank you again for holding these hearings.
    Senator Brownback. And I might note, too, that it actually 
may well save money even though this is in addition to the 
current public education--the scholarship is $3,200 versus 
$7,000-plus that the public education system spends. So it is 
not taking money out of the public education system, and it may 
actually cost less in delivering a better education for these 
children.
    Mr. Armey. I believe that is right on a per capita basis. 
By the same token, I have encouraged the subcommittee, and I 
think the subcommittee is fully committed to the proposition 
that whatever funds are made available for this scholarship 
program in Washington, D.C. should not be gained by reducing 
funds available to the D.C. public school system. While we hold 
so close to our hearts the importance that this can have to the 
number of children who benefit from it, I think we should never 
lose sight of the fact that the large task, the more important 
thing for the greatest comprehensive care of all the children 
of this city is the rehabilitation of the D.C. public school 
system so that it performs at such a level.
    I think the competition engendered by choice helps in that 
process, and I do not want to see this choice program funded by 
reductions in revenues for D.C. schools themselves. I do not 
think that will be the case.
    Senator Brownback. Good. Thank you very much. I appreciate 
your coming.
    Mr. Armey. Thank you.
    Senator Brownback. Our second panel consists of Jeanne 
Allen, President of the Center for Education Reform; Nina 
Shokraii, an Education Policy Analyst, Domestic Policy Studies, 
at the Heritage Foundation; and Kent Amos, President of the 
Urban Family Institute.
    We certainly appreciate all three of you coming to testify 
today. What I would like to do if I could with each of you is 
to have your full testimony put into the record; if you can 
summarize your statement, and then let us have a good 
interaction back and forth and even amongst the panelists. If 
you hear comments from other panelists that you would like to 
react to, please feel free to do that.
    Have you agreed upon any order of presentation, or are 
there any needs that individuals have to testify first? If not, 
I will just go down in the order in which I called you.
    Ms. Allen, President of The Center for Education Reform, we 
very much appreciate you being here today, and the floor is 
yours. And welcome back, I might say.

    TESTIMONY OF JEANNE ALLEN,\1\ PRESIDENT, THE CENTER FOR 
                        EDUCATION REFORM

    Ms. Allen. Thank you, Mr. Chairman. I appreciate it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Allen with an attachment of a 
statement from Malcolm Peabody, Chairman of Friends of Choice in Urban 
Schools, Inc., and Lex Towle, Managing Director of the AppleTree 
Institute for Education Innovation, Inc., before the Subcommittee on 
the District of Columbia Committee on Appropriations, U.S. House of 
Representatives, appear in the Appendix on pages 51 and 55 
respectively.
---------------------------------------------------------------------------
    First, I want to say that I applaud Congressman Armey for 
his sentiment and his passion over this issue. He, like 
Congressman Flake and hundreds of lawmakers across the country, 
both Democrat, Republican and in between, embrace the very 
concept that he came here to talk to you about, and in fact, 
preliminary results from the Center's 1997 poll which will be 
released next week indicate 86 percent support among African-
Americans alone for some sort of school choice option that 
includes private schools. It is clear the time has come, and I 
am delighted that you have focused on the issue.
    I came back today, though, having been here 6 months ago, 
to primarily focus on the quest for charter schools in the 
District and related issues which the District has been 
grappling with.
    I have to say that the effort remains slow and encumbered 
by what I see as bureaucratic foot-dragging. I think there is a 
lack of clear vision of what the officials in charge think 
about what charters can do for D.C. school children. I believe 
it is still being looked at and approached very much as an 
aside, a fad, an additional thing as opposed to how it is being 
considered across the country, which is a reinvigoration of 
public education and the opportunity for real people, teachers 
and parents and civic leaders, to create schools responsive to 
needs in communities and make that part of, as I said, sort of 
revolutionizing the public education system.
    In the city, no less than four major business and civic 
groups have been working full-time to clear hurdles and send 
positive signs of encouragement throughout the city. For an 
area with the third-strongest law in the land, the dearth of 
charter applicants and action to me is appalling, and I 
certainly do not think it was Congress' intent.
    Meanwhile, Chicago, which is not 2 hours away by plane, was 
plagued with problems one could consider worse than the 
District's. Their major legislation replaced the ineffective 
school board with a CEO and a Board of Trustees and gave them 4 
years to turn around a city where the dropout rate hovers 
around 50 percent. Chronic truancy in Chicago is two times the 
State average.
    Not 2 years after the changes were made, already dramatic 
reforms and efforts are beginning to be realized. The new 
trustees have fired 12 principals from schools with poor 
academic results; they have reconstituted seven schools 
entirely--most of those people were asked to reapply; most of 
them were not rehired back by the CEO in charge, Paul Vallas.
    Chicago Trustees also begin to recognize that reading 
problems, which Congressman Armey also referred to in the 
District of Columbia, were the direct result of a lack of 
traditional, fundamental reading instruction. They pushed a 
``back to basics'' effort that emphasized phonics. They also 
required homework in every grade--the higher the grade, the 
more homework--and social promotion is not prohibited.
    Any child not able to pass muster or be guaranteed a place, 
say, from 4th to 5th grade the following year was required to 
sit in summer school this year to make up deficiencies, and I 
am told that progress was enormous this summer given the 
concentration and the focus and the fact that those people 
teaching summer school and those children going knew that if 
they did not pass what was required of them, they would not 
have that grade to go into in the coming year.
    Serious accountability is being taken in Chicago, and it is 
something that I think we can learn a great deal from, and I 
refer to several other incidences and effects of the Chicago 
Reform Act in my testimony.
    Chicago also has charter schools, as Illinois passed a law 
the same year that Washington, D.C. did. There, Chicago has 
already authorized 10 of the 15 charter laws permitted by law--
there is a cap there--and those schools range from schools for 
dropouts rates, although the CEO of the Chicago schools, Paul 
Vallas, has also instituted 26 new alternative schools for 
troubled children. So in addition to those schools, there are 
international baccalaureate and very high challenging curricula 
for children in the city of Chicago through charter schools; 
there are some ``back to basics'' schools; there are some 
vocational schools; there is a panoply of very strong and 
encouraging charter schools that we are going to be following 
with greater interest.
    One of the things that Paul Vallas also did not shy away 
from was trying to use the Catholic schools there as a template 
to follow. Making no bones about it, he said that he wanted to 
practice the tried and true practices that the Catholic schools 
there were doing, using tests and standards as a benchmark. 
Over the last 2 years, there has been significant progress 
among both elementary and middle-school children in reading and 
math. There is still a lot of work to be done, but there have 
been significant point gains where for years there had been 
none.
    In Chicago, there were no delays in repairing dilapidated 
buildings. It was one of the first orders of business in 1995, 
and by 1996, many of the most serious safety infractions were 
fixed.
    Is it any wonder that a district the size of Chicago, with 
550 schools, can make progress when it permits itself to hire 
any number of private contracts? In fact, private contracting 
was something that Paul Vallas put on the top of the table when 
he first went in to look at maintenance and all the various 
things he had to do in the school system from, as I said, 
maintenance to food service. It also pays its bills on time. He 
was willing to open up to people throughout the State, and as a 
result, the number of work orders completed in Chicago rose 
from over 1,000 in 1 year to 16,000 just last year. So they got 
their buildings up-to-speed.
    Just 6 months ago, I shared with you my frustration over 
the pace of already-enacted school reform here. As an observer 
with a wide and deep knowledge of reforms at play throughout 
the country, I recommended that some time lines be established 
here for officials to carry out the intent of the charter law. 
I spoke of the unparalleled potential for dramatic improvement 
that charters are bringing to children everywhere. Yet, while 
over 150,000 children started off to about 750 charter schools 
across the country just last week, the District still has only 
four, two of which are new, one of which should have been 
closed long ago, quite frankly, and one that has struggled for 
every penny and ounce of freedom otherwise guaranteed to the 
school director by law.
    I have to share with you that an acquaintance who worked 
briefly at D.C. public schools recently remarked to me that he 
had gone in as an avid defender of the system as is and left 
reluctantly endorsing full-scale vouchers. While I, for one, 
offer unconditional support for aiding low-income children with 
real choices, I am not sure that drawing that support from an 
experience with an ineffective bureaucracy is how I would like 
to find compatriots. For if that is the impact a central 
district has on its bright-eyed employees--and it does so every 
day--how can it be assured that any reform, no matter how 
mandated, is followed and carried through?
    The D.C. Public Charter School Coalition has recommended 
several steps to Congress to ensure parity and equity for 
charter schools. I think their recommendations are sound, and 
as a result I have appended them to my testimony. But I have 
gone further to suggest that Congress make further demands and 
squelch the ability of the board and the school system to suck 
the life out of this critical education reform; otherwise, we 
will be having the same conversation next year.
    As we have seen in countless other States, if the people 
controlling the purse are not advocates and are not charged 
with fulfilling the law with appropriate oversight, then little 
will be done to affect charter schools. The D.C. Public Charter 
School Coalition, for example, has been negotiating for 6 
months on the definition of ``preference'' when it comes to 
facilities for charter schools. Why it takes 6 months to define 
what ``preference'' should mean when Congress' intent was 
relatively clear--to me, this should be perhaps several 
meetings within a month's time span; get it over with, and get 
it done, so that people can have access to facilities.
    I think the main reason that DCPS is in this position--and 
there are hundreds of other stories I could share with you of 
foot-dragging--is because they have been wedded to doing 
business as usual for too long; there are no incentives to push 
this, and as I said, I do not think there is a clear vision and 
a role for what charter schools can do for this city.
    Why did it take more than 6 months, for example, as you 
well know now, from one of the only two charter schools in D.C. 
to get a portion of Federal charter school grant money. If two 
or three people have to sign a check, to me, that does not take 
6 months. Six months, countless meetings, media attention, 
constant badgering--is this what we want for D.C. school 
children?
    In Chicago, the Trustees have fully-established, well-
publicized time lines and goals. The legislature has assigned 
people to work hands-on with the Trustees to offer support as 
well as hold accountable those now in power. Part of this, to 
be sure, is about personalities, but it is also having a set of 
six goals and sticking to them. You cannot turn around a city 
with the severe problems of D.C. without doing so.
    Among my recommendations as a result of my observations are 
the following: First, you need to convene a congressional 
briefing session for the Public Charter School Board, General 
Becton and staff, the Board of Trustees and others that are 
critical to this reform--some of the agencies you mentioned 
earlier, Senator, that were to be helping in the charter 
effort, including the Smithsonian and others--and have that 
briefing conducted by leaders of a dozen or so States where 
charter schools are prospering and flourishing. I just do not 
think people understand or, quite frankly, get it and what can 
be done here.
    Second, enact measures, requirements and time lines similar 
to those that are paving the way for dramatic reform in 
Chicago.
    Third, as I recommended in April, require 100 percent of 
per-pupil funding to be disbursed early in the process so that 
schools can get off and running, buy curricula, train teachers 
in the summer, in four easy payments. Congress can make special 
allocations from prior year funding; it would not break the 
bank, and it certainly would not increase appropriations.
    Fourth, assign a senior-level congressional staff person to 
attend and monitor all charter school policy meetings and serve 
as the liaison with the civil resource groups. This person 
would ensure that the congressional intent of the law was being 
fulfilled, and the DCPS would know clearly that Congress is 
aware of its various moves.
    Finally, establish a separate State education agency for 
the District. The District is the only area in the country 
where the SEA and the local education agency are one; it puts a 
conflict of interest in place if they have to be one and the 
same in terms of funding, and they view everything as 
competition as a result.
    Please understand that I do not question the motivations or 
intention of General Becton, the DCPS, or his staff. It is 
clear, however, that the priorities of DCPS are not consistent 
with fundamental education reform and that foot-dragging and 
delays will continue on every education measure unless and 
until the control is reestablished. This is no doubt an issue 
for the Board of Trustees, but as Congress created the board, 
so too must Congress amend its plans if it fails to develop as 
originally enacted.
    Thank you.
    Senator Brownback. Thank you very much, Ms. Allen. That was 
very good, pointed testimony, and I look forward to some 
questions to ask you about carrying out some of these items.
    I, too, am very frustrated. This was 6 months ago; it was 
April 17. Much of your testimony then was similar to what it is 
now. Why haven't we had more progress in moving forward on 
this? Perhaps it is time for us to set those specific time line 
dates and just say this is the way it is going to be if you are 
not going to move forward on these proposals.
    Ms. Shokraii, Education Policy Analyst for The Heritage, we 
are delighted to have you with us today. Thanks for joining us.

   TESTIMONY OF NINA SHOKRAII,\1\ EDUCATION POLICY ANALYST, 
        DOMESTIC POLICY STUDIES, THE HERITAGE FOUNDATION

    Ms. Shokraii. Thank you. Mr. Chairman, it is an honor to 
appear before you today to discuss reforms in the District of 
Columbia public schools. Much has happened since the D.C. 
Financial Control Board appointed General Julius Becton as 
Superintendent of D.C. Schools last November.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shokraii with an attachment 
entitled ``A Comparison of Public and Private Education in the District 
of Columbia,'' September 17, 1997, appear in the Appendix on pages 62 
and 68 respectively.
---------------------------------------------------------------------------
    The Board has acted swiftly and efficiently with many of 
the dilemmas facing the D.C. school system, specifically, by 
stripping the D.C. School Board of its power over budget and 
policy. But, as with many one-size-fits-all solutions, General 
Becton's solutions are bound to displease some people. This was 
particularly apparent when they swiftly voted on shutting down 
11 D.C. public schools just a few months ago, although a 
fiscally sound solution, it lacked one key component--parental 
input.
    Nearly 2 years ago, Congress enacted one of the strongest 
charter school laws in the country for D.C., yet the city has 
only managed to open two. While the rest of the country, as 
Jeanne noted, is reaping the benefits of charter schools, the 
Nation's Capital, whose families could benefit the most, is 
lagging behind.
    The dismal state of D.C. public schools, coupled with the 
current decrepit state of its school buildings, which has 
caused a 3-week delay in opening this fall, the abundance of 
violence and drugs on school grounds, and the vast but 
ineffective school bureaucracy, has mobilized everyone from the 
President to Congress to local activists to find ways to fix 
the system quickly.
    Mr. Chairman, there are many elements to an effective 
solution to the D.C. school system's shortcomings. One is an 
overhaul of the public schools, especially their suffocating 
bureaucracy, which General Becton has taken on and vowed to fix 
by the year 2000. Another is to incorporate competition by 
offering charter schools within the public system, an 
alternative that I hope will flourish under the General's rule.
    But the best solution is to offer D.C. parents vouchers to 
send their children to the schools of their choice, be they 
public, private or parochial. The District currently allows 
parents to choose between public schools of their choice. It is 
critical to make sure that option is expanded to private and 
religious schools.
    This is crucial for three reasons, the first being that 
private schools, especially parochial schools, produce better 
results, especially in the inner cities. As shown in the 
Milwaukee and Cleveland school choice experiments and the 
numerous private scholarship programs around the country, low-
income inner-city children are benefiting from school choice. 
Recent studies of the Milwaukee school choice program by Paul 
Peterson of Harvard University and Jay Greene of the University 
of Houston, for instance, show that after attending the choice 
program in Milwaukee for 3 years, the gap in test scores 
between whites and minorities narrowed from 33 to 50 percent. 
This study was nearly replicated by Cecilia Rouse from 
Princeton University, who found very similar results.
    Other studies also confirm the success of choice programs, 
especially in the Catholic school arena. The most important 
work in this area, as you know, was done by the late 
sociologist, James Coleman, of the University of Chicago, who 
found that Catholic school sophomores scored 10 percent higher 
in science, 12 percent higher in civics, 17 to 21 percent 
higher in math, reading and vocabulary than their public school 
counterparts. His study also showed that a child is more likely 
to attend school with a child of another race in a private 
school than in a public one and that dropout rates are 
significantly lower in private schools than in public schools.
    Recent studies confirm Coleman's findings with an even 
higher degree of accuracy. William Evans and Robert Schwab from 
the University of Maryland, for instance, found that attending 
a Catholic high school raised the probability of finishing high 
school and entering college for inner-city children by 17 
percentage points. A study by Derek Neal at the University of 
Chicago found that African-American and Hispanic students 
attending urban Catholic schools were more than twice as likely 
to graduate from college as their counterparts in public 
schools. They also found that 27 percent of minority graduates 
who started college went on to graduate, compared with only 11 
percent in urban public schools. Neal's study was just recently 
replicated by University of Oregon Professor David Figlio, who 
found exactly the same results.
    Finally, Caroline Hoxby from Harvard has found that 
competition from private schools increased academic achievement 
at both public and private schools. She found that greater 
private school competition raises the academic quality of 
public schools, the wages of the teachers in the public 
schools, and high school graduation rates of public school 
students.
    Through choice, Ms. Hoxby concludes that both public and 
private school kids would increase the amount of time spent in 
school by about 2 years, while their math and reading test 
scores would improve by about 10 percent. She also noted a wage 
increase later on in life of 14 percentage points.
    Another reason why school choice will make a tremendous 
change in Washington, D.C. is the fact that more dollars will 
actually reach the classrooms. The legislation that you have 
offered with your colleagues channels Federal dollars in the 
most direct way to parents, who then select the school of 
choice for their children.
    And finally, vouchers would save the public schools money 
to use on public school students. According to a study, for 
instance, of the cost of private school education conducted by 
the Cato Institute, 67 percent of all private elementary and 
secondary schools charge $2,500 or less in tuition. The average 
tuition in private schools is only $3,116. This is half the 
national average of $6,857 to educate a student in a public 
school. In D.C., the per pupil cost is even higher. The last 
estimate I have seen was $8,841, and many think that number is 
even higher. The average cost of a Catholic school in D.C. is 
less than half that amount. The public schools involved in a 
school choice or voucher program can in turn use the extra 
space and money to benefit their students by managing their 
resources better or taking firmer action against unruly 
students.
    Mr. Chairman, school choice is the only reform mechanism 
that would offer D.C. schools immediate and measurable results. 
Offering the parents of the District of Columbia choices 
through the traditional public education system via charter 
schools and private schools will ease the burden on the 
District's public schools while ultimately offering all 
children in D.C. a better education.
    Thank you.
    Senator Brownback. Thank you very much for that testimony. 
I look forward to some questions and interactions.
    Mr. Amos, President of the Urban Family Institute, thank 
you for joining us today. I appreciate it very much, and the 
floor is yours.

TESTIMONY OF KENT B. AMOS,\1\ PRESIDENT, URBAN FAMILY INSTITUTE

    Mr. Amos. Thank you, Chairman Brownback.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Amos appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    First, I would like to note that we will amend our written 
testimony because things have been very fluid in our area in 
the last few hours and given last night's conversations, which 
we think will be very positive toward this end.
    In the last several hours, we have been able to have a 
conversation with a number of the city leaders around the 
question that we bring before you today, and that is the 
question of how is it that we are going to fund the charter 
schools that are going to come on line in this city. We have 
become part of the charter school movement by a particular 
route which we will come back to a moment if time permits.
    But let me start with what we are asking you to support, 
and that is a change in the funding stream on how we fund 
charter schools in the District of Columbia. The reason for 
this request is that we believe that the one way we can really 
impact this system is to bring private capital to bear.
    My background is one from corporate America--again, I will 
comment on that later--but we have been able to put together a 
pot of money, fairly sizeable, from the private sector, which 
is willing to invest in the public schools in the District. 
Those dollars therefore have got to be repaid. The funding that 
we currently receive does not include capital dollars. If you 
want to improve the school buildings in this city, bring the 
private sector heavily involved into it, and we believe we can 
and will do that. But to repay the loans associated with that 
effort, we would like to be able to share equally in the 
capital costs associated with what comes to the District of 
Columbia.
    In addition, each of the teachers that we want to bring 
into the charter schools that we will be representing next year 
and beyond, we want to be able to be fully compensated as well, 
which includes their pension costs. Currently, the formula does 
not provide for the pension dollars that flow to the District 
of Columbia to flow to the charter schools; we would ask that 
be amended as well, and we believe that the city is going to 
move to do that.
    Third, right now, the funding structure is such that the 
funds are predicated on the previous year's enrollment. To the 
extent that charter schools are brand new, there is no previous 
school enrollment, and therefore you are still a year out from 
receiving funding. For a start-up organization, the initial 
days are very important. Therefore, we would hope that we would 
find some formula that would allow for those dollars to flow to 
the charter schools as well. We think we could use the month of 
September--because actually, the fiscal year starts in 
October--and just count who is there the first day, so to 
speak, and use that as your measurement, but if that does not 
work, we can find another format.
    And finally, we ask that if some point in time, the adult 
education programs in Washington, D.C. begin to be refunded, 
that charter schools also participate in those dollars. The 
truth of the matter is our situation is such that all the 
children in our community are, in many instances, surrounded by 
adults who need the same kind of training that the children do, 
because they have gone through these systems prior to their 
children and have also not been fully developed. So therefore, 
adult education at some point is going to be a very crucial 
element, and we would like to combine that.
    So we are asking that you support what we believe will be 
an initiative by the District of Columbia leadership to, in 
fact, amend the existing District resolution to accommodate 
these things; if Federal law would follow that, we would 
certainly be appreciative.
    I come to this hearing today as a fourth-generation 
Washingtonian. My grandfather taught in the D.C. public schools 
for 47 years. My father graduated from a D.C. public school and 
became an attorney. My mother taught in the D.C. public schools 
for 32 years. I am a graduate of D.C. public schools, and in 
fact, 16 years ago, I came back to Washington, D.C. as vice 
president of a Fortune 50 company and put my children in the 
D.C. public schools. A lot of people suggested that was not the 
wisest thing that a corporate executive could do at that time, 
or certainly today, but we felt it was important that we live 
up to the legacy of our public education system.
    We found very quickly, however, that choice that we made 
may have a negative impact on our home and on our family, so we 
decided to do something about it. That ``something about it'' 
that we did was to first of all bring corporate resource to 
bear into the public system that our children found themselves 
in. Through my position in the company, we were able to put a 
computer lab in the school; we were able to put a summer jobs 
program in the school for the children around us. But it was 
not enough. We still found ourselves with children in our home 
who needed the kinds of supports that only a family can provide 
and that a community that surrounds it children can provided.
    So my wife and I decided to open up our home and our 
resources to the children who surrounded our family. To make a 
long story short, Senator, we adopted 87 children over a 16-
year period, 11 of which--we had as many as 25 kids in our home 
every, single day for as many as 2 years.
    Senator Brownback. That $500 per child tax credit would be 
a nice one for you. [Laughter.]
    Mr. Amos. Any time, anywhere.
    So we have sent dozens of children to college, children 
whom many people would have suggested would not have made it. 
We have seen a host of our children graduate from college and 
go on to receive secondary degrees; we have 11 with advanced 
degrees today.
    But I am also here as one who has seen his children reach 
those pinnacles, but has also seen his 16-year-old son gunned 
down as he was heading to school. We have also been there when 
our 19-year-old son, who came home from his freshman year of 
college and was playing basketball on a local playground was 
stabbed to death in an argument over a basketball. We have also 
gone down to Norfolk Stadium in our son's junior year to bring 
him home in a body bag because he was stabbed in front of a 7-
Eleven. We have seen our children gunned down, stabbed to 
death, and in fact, a 16-year-old child of ours was hung on his 
16th birthday because he would not sell drugs.
    So the reason why I am here today as a parent, if you will, 
and the reason why I walked away from corporate America to now 
beg for a living, running a small nonprofit organization, is 
not because we are here trying to do something about schools--
we are trying to save our society and in many ways, our soul.
    The question for us is not how do you structure a school, 
but how does a system as powerful as this one create the kind 
of carnage that is going on in our society, and how can we do 
something different about it. So we dedicated ourselves to 
trying to figure out a way to change the system that is 
producing the kind of foolishness that is going on in this 
society today, and we believe we can do that.
    We believe, as we did several years ago, working with your 
colleagues in the Senate on S. 138, with then Senators Danforth 
and Bradley, when we put forth a bill called at that time ``The 
Community Schools Act'' to use school buildings as the 
centering point for community life in many communities where 
there is no centering point. That piece of legislation went 
through, and we are still supporting that.
    Today, we are here supporting charter schools. Why? Again, 
because it comes back to the same principle: How do we organize 
community around caregiving in a sufficient manner that 
children end up productive adults. That is the goal. It is 
really simple; it is not hard.
    What we said we would do is, OK, how can we find a way to 
use public buildings called schools as a part of the human 
development equation. We brought corporate American to bear. We 
now have, as I said earlier, a host of dollars available to us 
by the corporate community that they are willing to spend on 
public schools if, in fact, they have control of the assets. 
And as any business interest, we have a way to repay that loan. 
We figured out that for about 2,000 to 3,000 kids, at $1,500 
per child--which is basically what it is coming down to with 
the capital cost--we can fund some $50 million worth of changes 
in the physical structure of the buildings that we are talking 
about, and that is where we want to go, and we will use the 
capital dollars to accomplish that.
    In addition to that, we are working not only with schools, 
but with families. In the last several years, we have been 
working with public housing, and I know this is not the subject 
of the hearing today, but you cannot talk about children who go 
to schools and who come from public housing and not understand 
the environment they are coming from. The truth of the matter 
is they are only in school 10 percent of the time; 90 percent 
of their time, they are out of school. What happens to them 
there? Our argument is that we have to do something there as 
well. So, working with then Secretary Cisneros and now with 
HUD, we have figured out a way to bring education reform to 
public housing and tie that to public schools, surrounded with 
other public assets like playgrounds and with the faith 
community of church and other kinds of assets, building a 
continuum that sees to it that every, single child, every, 
single family has a developmental paradigm that produces the 
kind of outcome that we want.
    In conclusion, Senator, Brownback, I would say that our 
plea is one of a family that has seen pain and known joy, to 
somehow bring the full weight and power of this institution to 
bring the kind of joy to all families that we know is possible. 
If you support the leadership of this city and the 
transformational efforts that we are undertaking today, give us 
the financial wherewithal, the political support and the 
intellectual capital that this city has available to it, and we 
can then make a difference.
    Thank you.
    Senator Brownback. Thank you, Mr. Amos. Thank you for your 
work, and my heart goes out to you on those tragedies. That is 
just terrible to see.
    It strikes me that what we are seeing take place here is 
that we are now allowing every life every opportunity to 
succeed. If you look at life as sacred, it needs to have every 
chance to succeed and to grow and to prosper, and that we are 
just not allowing that in this powerful system as you describe, 
Mr. Amos. That is what we really want to get at, fundamentally, 
is what can we change in this system to allow that beauty that 
is in each of those lives to be able to blossom as much as 
possible. It seems like now, we are just crushing so many of 
them, and that has apparently been your experience as well.
    You are strongly supportive of the charter school effort 
and trying to move that forward. Do you see other things we 
ought to be doing as well to grant those greater opportunities?
    Mr. Amos. Yes, Senator. Let me also just be clear about my 
support for charter schools. I believe that Generals Becton and 
Williams and all are, as Jeanne said, and as I also believe 
Nina said, well-intentioned. We are all well-intentioned. But 
the system--if we wait until they do what they have to do--I 
think Mr. Armey talked about his grandchildren--well, my 
grandchildren will probably go to D.C. public schools--and I 
have a bunch of them, by the way; I have 22 of them. But the 
point is that at some point in time, we cannot wait for the 
system to change itself; we have got to move as expeditiously 
as we can.
    I believe that the charter movement and also providing 
young people and their families with enough opportunity 
financially to go anywhere they can--I do not want to see a 
single child left behind if we do not have to--so if we can 
fund a child to go to another school while we build the better 
system, let us do it. But right now, we have got to change 
systemically. Again, Jeanne talked about the 750 charter 
schools in the country that kids are going to. Well, there are 
120,000 schools. We are not going to break this thing school by 
school; we have got to build a systemic kind of change.
    We have an opportunity here in Washington, D.C. that is 
very, very unique, where we can put together a systemic 
movement between the charter schools--there are 50 closed 
school buildings right now. We are proposing, for example, with 
our private resources, to acquire all 50 of those. That will 
then give us a school base of 50 buildings. Then we will join, 
as we already have--we are currently working with a host of 
people who want to fill those buildings with new ideas, new 
ventures--we are prepared to do that, and we have been working 
now for several months at putting that network together. So we 
think that we can work with the system and provide for it, in 
many instances, changes that they cannot do, because we have 
more flexibility. So the combination of what they want to do 
and what we are currently doing together will bring rapid 
change and thereby save more children.
    Senator Brownback. Mr. Amos, on purchasing those 50 
buildings and starting schools, are you being supported by the 
education bureaucracy? Are you fighting it? How would you 
characterize your negotiations?
    Mr. Amos. I think it is the last word that you said; I 
would characterize them as ``negotiations,'' Senator. I think 
we are in the process of trying to have everyone understand 
that collectively, we win, that fighting does not win. That is 
a losing proposition.
    So as I said, as recently as last night, speaking with the 
chairman of the District of Columbia City Council's Education 
Committee--they have the ability to write at least a ``sense of 
the Council'' resolution--and talking last night with two 
members of the Financial Control Board for over an hour, 
everybody is beginning to understand that if we do this thing 
right and together, we can bring substantive change quickly. 
There is no reason why we cannot in the fall of 1998 have a 
host of schools open and ready to go in a first-class way.
    Senator Brownback. How many should we target to be open in 
the fall of 1998?
    Mr. Amos. Our goal is anywhere from 5 to 12 schools.
    Senator Brownback. From your organization?
    Mr. Amos. Well, it is not just our organization. It is a 
combination of organizations coming together and working 
together.
    Senator Brownback. Ms. Allen, how many charter schools 
should we target to have open a year from now?
    Ms. Allen. Twenty.
    Senator Brownback. A minimum of 20. And you stated four, 
and I heard differing testimony here, two or four. But you have 
stated four, and one should be closed.
    Ms. Allen. Yes.
    Senator Brownback. And I think that one is pretty well-
documented as far as the problems that it has had. But you 
think 20 at a minimum, with the physical property available.
    Ms. Allen. Yes. And Senator, as Mr. Amos has told you, 
there is no dearth of people who want to do this. There is a 
lot of lack of information. There are not as many people out 
there who have stepped up to the plate as could be potentially 
quality candidates, working with a variety of the resource 
groups around, quite frankly, because you do not even want to 
get involved in a process that just looks like a bear. Gee, 
there is this application, there is that, and I hear the money 
is not coming, and I hear that special education might not be 
there, and I hear that, well, they had a problem getting their 
Federal money--and suddenly, you have a great teacher out there 
who wants to do something, and you have given that teacher no 
hope. Whereas if you look at communities where we have had 
charter schools in existence as long as 4 or 5 years in States 
like Minnesota, they have not only become schools for, say, 150 
or 200 kids, but they have become these great meccas of a 
community. The Urban League has gotten involved in an after-
school program. There is before-school care by the YMCA. The 
civic groups have adopted them. I mean, suddenly, people who 
have wanted to be able to have input and guide children along 
have found an opportunity in so many cities through charter 
schools because there are no rules written saying, no, you 
cannot. It is very open.
    So to a large extent, while Kent is absolutely right, there 
is a much larger mission in terms of savings lives of people 
like he is directly involved in, the whole concept of education 
reform through both school choice and charter schools helps to 
build back a community and give children hope, so that those 
kids on the outside are wondering what they are missing inside, 
whereas right now, the kids on the inside are wondering what 
they are missing outside.
    Senator Brownback. And it looks like in the community, too, 
as Congressman Armey was talking about, this is a way of saving 
public education, and it gets fought so much.
    You, though, Ms. Allen, believe that the only way we will 
really get at this is by setting specific time lines for 
certain accomplishments. You think that otherwise, the system 
will slow-roll and crush anybody who really wants to get a 
grasp on establishing charter schools?
    Ms. Allen. That is my feeling, yes.
    Senator Brownback. And you listed several specifics. Have 
you listed specifics in your testimony on what should be done 
by what time lines?
    Ms. Allen. I have some that I could amend--some of the 
suggestions filed from April that I could amend based on that.
    Senator Brownback. I would appreciate it, and we can look 
back at your testimony in April again to see about putting 
those on fast-forward.
    Let me ask you as well, in Chicago, you noted a similar 
situation if not worse than in the District of Columbia and the 
dramatic reform that took place in a short period of time. You 
mentioned the firing of 12 principals in the Chicago school 
system.
    How many principals have been fired in the District of 
Columbia; do you know?
    Ms. Allen. I believe three. There were a lot of 
reassignments, also.
    Senator Brownback. Do you think there has been ample work 
done in the District of Columbia in these restructurings, or do 
you have any separate thoughts--as separate and distinct from 
charter, just from the operation of the current public school 
system?
    Ms. Allen. The complaint that big-city officials often use, 
which for a long time has been very, very valid, is that, well, 
we cannot really reconstitute a staff because we have the 
union, and we have a collective bargaining contract that says 
X, Y, and Z, and if we dismiss staff, they will end up 
somewhere else in the system, so why do this? There are lots of 
excuses.
    In Chicago, they have a very strong union. Chicago Teachers 
Union is one of the strongest in the country. But the attitude 
of the trustees and in fact of the legislature was: You can be 
with us or you can be against us, and if you are against us, we 
are going to profile you for just that. So get out of the way; 
we are going to move in, and we are going to take care of this. 
And if you have a problem because someone has tenure but they 
are incompetent, why don't we sit down and talk about it in 
public?
    So it was real clear from the very start. I mean, there 
were not words to that effect spoken specifically by Paul 
Vallas, and I am not putting words in his mouth, but it was 
clear all along--we have a job to do; if you are in the way, if 
you have a problem, come to the table and make sure it is clear 
to everybody what you are doing, because we are going to get 
rid of people who are not working for our kids.
    That attitude is not here. The attitude is that, well, we 
have these people, and there is a separate evaluation, and they 
have had several years--it is almost piecemeal.
    Senator Brownback. Here in the District of Columbia, it is 
too piecemeal?
    Ms. Allen. Yes. And with the lack of standards and clear 
tests, which were also part of the original D.C. education 
reform bill, I am not sure where they stand right now. The lack 
of an overall set of good tests used, with a high rigorous 
standard to assess where children stand--you would be able to 
see pretty quickly which schools were falling down and which 
were not, and you would have been able to close failing schools 
as opposed to some schools that were actually doing a darned 
good job. We can assess them like that.
    Senator Brownback. Do we know that in the District of 
Columbia? Do we have sufficient test scoring to know what 
schools are failing and which ones are succeeding?
    Ms. Allen. You have your basic standardized tests, norm-
referenced tests, that most cities have, but I do not think 
there is anything more specific, where in Chicago, for example, 
Milwaukee and New York, you have specific reading, math and 
science tests that are pegged to how much kids should know as 
opposed to norm-referenced how much everybody else is doing. A 
norm-referenced test simply gives you 50 percent of the people 
are above average, 50 percent are below. Based on that, D.C. 
test scores are pretty low. Based on other kinds of criteria, 
what would it look like if you were supposed to be doing ``X'' 
in 4th grade in math, and children in 4th grade math were 
tested, and we found out that, say, 40 percent were not there--
then people could get to work. That is what they did in 
Milwaukee. They recognized that less than half the kids could 
do basic math in 4th grade, and everybody got motivated and did 
something about it.
    Senator Brownback. But you are saying we have not 
accumulated that same sort of----
    Ms. Allen. Objective analysis.
    Senator Brownback [continuing]. Objective, clear, specific 
test data for the District of Columbia public school students.
    Ms. Allen. I do not believe we have, no.
    Senator Brownback. Mr. Amos, did you want to respond to 
that?
    Mr. Amos. No. I think Jeanne covered it very well.
    Senator Brownback. Do you agree with her statement?
    Mr. Amos. I would agree. I think there is a certain amount 
of data that is beginning to be amassed, but unfortunately, it 
is going to tell us exactly what Jeanne is saying, and I think 
that, again, the system can only move so fast. And I guess what 
we are suggesting is that we have got to help them move faster.
    Senator Brownback. And it seems to me that the very first 
thing you have to have is objective data. To really know what 
sorts of steps and means and things you have to do, you have to 
know what is the extent of the problem. As bad as it might 
seem, you have to know first what is the extent of the problem 
before you can get in and specifically begin to fight it.
    Mr. Amos. I believe, Senator, that there is enough body of 
data to understand the gravity of the circumstance. That is 
fairly well-documented. It may not be on an individualized 
school basis as it may need to be, but we have a fairly good 
handle on that.
    I would suggest that the first thing that needs to be done 
is to pretty much believe that every child is capable, as Mr. 
Armey talked about, and looking into the eyes of these children 
as I do every, single day--I still see kids every, single day 
and have for 16 years, and I know they are capable of something 
else, and we demand of those children to be capable of 
something else. The question is what paradigm do you put in 
place for that to take place. Kids in my home, for example, 
were all reading below level for the most part, just as has 
been described here. Well, if you are reading below level, what 
do you have to do? First, you have to make sure there is a 
paradigm that gets you reading more. So in our house, for 
example, there is a minimum of 2 hours' reading every night, 
period. That was a starting point. If you watch television, 
every hour of television you watch, you also have to read for 
an hour; so if you watch 2 hours of television, you have 4 
hours of reading--and you have to do it the same night.
    Senator Brownback. But not at the same time.
    Mr. Amos. No, definitely not at the same time. But what 
that ended up doing was that people stopped watching 
television. The formula became real easy--but it also meant 
that I had to stay up later, and I had to read, too--not you do 
it, and I do not do it--I have read more in the last 16 years 
than I did in the first 45 before that. But that is beside the 
point.
    The point is that you have to create the kind of 
environment. We can do the same thing in our schools. If 
schools are still operating on the same paradigm--school starts 
at 9 and ends at 3--and doing all the same things, well, you 
are behind, and you are not going to catch up. So what we are 
suggesting is that schools stay open later, or open earlier, 
and that the adults in the students' lives also come there. And 
by the way, some of those adults have gone through bad 
experiences in literally those same buildings. So if the adult 
in that child's life has gone to the same school and had the 
same experience, what makes it any more attractive for them to 
go back? Well, we have got to change that so that when the 
adult comes back and the child comes back, there is a new day 
there, there is a new encouragement there, there is a new set 
of resources available to them within the same dollars. There 
is not new money here; we are talking about how do you allocate 
the dollars and the resources, and we believe we can do it.
    One of the things we told the principal at the high school 
where my kids went to school was, look, I want to make sure the 
school stays open later. And the argument was that, well, we 
cannot keep it open later because somebody is going to 
vandalize the school. I said give me a key. I am pretty good at 
unlocking doors, and I can lock it back up. He did, and we kept 
the buildings open later, even if it meant just us being there, 
and I took the liability.
    So how do you create the kind of environment, I guess we 
are suggesting here, that creates the new learning paradigm for 
all of our children and their families.
    Senator Brownback. Ms. Shokraii, your testimony supports 
full-scale vouchers. Would you support the small step forward 
on the scholarship program?
    Ms. Shokraii. Absolutely.
    Senator Brownback. OK. Ms. Allen, do you support a full-
scale voucher type of program for the District of Columbia?
    Ms. Allen. Absolutely. I think anybody that is within an 
income level should have access to the public, private, or 
parochial school of their choice.
    Senator let me just add briefly that over the last several 
weeks, we have been meeting a number of parents and community-
based and some church-based groups who have heard about this 
effort on the Hill and are very, very interested. I have long 
known that parents do care, and parents do get involved when 
asked, but it really never hit home until these last few weeks, 
when you see people who say, I am on public assistance, and 
they called me last week and told me my child is going to be in 
special education, and I do not know why, because he was doing 
well all year--she would love to come and tell her story to 
you, by the way--and all of a sudden, they want me to do this. 
What am I supposed to do? they say I have to sign these papers 
and put him in a special education class, or he cannot come 
back to school.
    She has nowhere to go. She has no help. She has no support. 
We hear stories like this every day. It is just not fair.
    Senator Brownback. Mr. Amos, do you support a full-scale 
voucher program for District of Columbia public schools, D.C. 
students?
    Mr. Amos. Again, like Jeanne, I think there ought to be 
some economic question associated with it, and I think it also 
ought to be on a trial basis, candidly, until such time as we 
give an opportunity for the system to change itself. If it does 
not, then so be it. But I think that the system is moving 
toward change, and that we ought to give that opportunity. At 
the same time, however, I think we ought to have some limited 
scholarship program, if you will, vouchers, if you will, that 
will allow children who are in need of that kind of education 
right now. While we go through our machinations, if you will, 
as adults to change the system, we should not hold the children 
back. So therefore, I would have some limited support for that, 
yes.
    Senator Brownback. Well, I thank you all for coming. I must 
say I am disappointed, not in your testimony, but that since 
April 17, there has not been further progress made. This is a 
paramount issue for the District of Columbia, how we educate 
our children, and we have to start making more progress. We 
need to get all the facts on the table, and we need to move 
forward rapidly. We just cannot wait for a bureaucracy to crush 
more kids.
    I hope we can have some of you back here to be willing to 
review the system in another 6 months to a year and that your 
statements at that time will be much more positive because we 
have made much more change. At the end, our objective always 
has to be to be able to stare in that child's face and say, ``I 
did everything I could to recognize you and to be able to give 
you every chance you have.''
    So we look for you to continue looking at the school 
system, and thank you very much for testifying today.
    Our final panel today will be General Julius Becton, Chief 
Executive Officer, District of Columbia Public Schools, and Dr. 
Bruce MacLaury, Chairman of the Emergency Transition Education 
Board of Trustees.
    Thank you very much for coming today. We appreciate it. We 
also have with us today Chuck Williams, retired Major General, 
Chief Operating Officer for the D.C. Public School System, who 
has joined us on the panel as well. Thank you very much. I am 
sorry we do not have a name plate up there for you, although 
that may help you to not get as many questions that way.
    Thank you very much for coming. I called this hearing 
because I have a lot of serious concerns about what is taking 
place in the District of Columbia public schools. We heard some 
strong testimony before us today, and I look forward to hearing 
your response to what you have been questioned about publicly 
and seeing if we cannot get to the bottom of some of this.
    Each of us holds in our heart the clear desire to have the 
best education system possible for these kids, and the question 
becomes how do you get there. I want to hear how you folks 
think you are doing on getting there, and then I have some real 
concerns about how the pace is going and what is happening.
    As the chairman of Emergency Transition Education Board of 
Trustees, Mr. MacLaury, we will go with you first if that would 
be OK. We are delighted to have you here. We will accept your 
entire written testimony into the record, and you can summarize 
if you would like or present it in full.

    TESTIMONY OF BRUCE K. MACLAURY,\1\ CHAIRMAN, EMERGENCY 
 TRANSITION EDUCATION BOARD OF TRUSTEES, DISTRICT OF COLUMBIA 
                         PUBLIC SCHOOLS

    Mr. MacLaury. Thank you very much, Mr. Chairman. I 
appreciate this opportunity to present the views of the 
Emergency Board of Trustees on the progress toward school 
reform in the District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. MacLaury appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    As you know, the Trustees have been given until June 30, 
2000 to accomplish wide-ranging and long-lasting reforms for 
the District of Columbia's school system. Inescapably, we have 
had to make tough choices and put safe and secure schools at 
the very top of the list. If our motto, ``Children First,'' 
means anything, it means ensuring that students go to schools 
that are safe from violence and free from leaky roofs that 
could cause fire code violations and unexpected shutdowns as we 
have had in the past.
    This administration took over from earlier ones that had 
allowed schools to deteriorate while not even spending the 
admittedly inadequate capital funds that they had at their 
disposal. We were given not quite $50 million to make a 
responsible start toward stabilizing aging schools, and we gave 
full support to General Becton when he decided that the job had 
to be done right by replacing leaky roofs instead of patching 
them in an endless cycle of wasting taxpayer dollars and 
disruptions during the school year.
    When we took on our new responsibilities, the public school 
system was in meltdown. Data on students and staff were 
difficult to obtain and hard to verify; procurement practices 
and financial controls were lax, and standards for hiring and 
evaluation were unenforced.
    I begin on these points for two reasons--first, to give 
General Becton credit that he has rarely received for taking on 
a series of actions to rationalize an organization and put it 
on a sound footing. He has worked hard over the past 10 months 
to put in place the people and the systems needed to do the 
job--but much of that effort that has already been made has not 
been visible.
    The second reason I cite this effort is because the 
groundwork has brought us to the point where real 
accountability is now becoming possible. Beginning with this 
new school year, you and the public will know what to expect, 
how soon it should happen, and who is responsible. Our 
fundamental principle is that the performance of every 
individual in this system must be measured by how well their 
work contributes to increased student learning, and that 
accountability begins with the Trustees and with General 
Becton.
    Over the past several months, we have obtained broad public 
input on how to shape our academic plan for the coming year and 
beyond. In an upcoming public meeting, we expect to ratify this 
ambitious program, which includes, first, tough new academic 
standards and assessments to go with them; second, performance 
targets for each school in the system, plus rewards for those 
that meet targets, probation for schools that are in trouble, 
and reconstitutions for those that are chronically failing our 
children; third, an evaluation system that bases teacher and 
principal evaluations on progress that the students are making; 
and fourth, a new student promotion policy, ensuring that 
students in the 3rd through 8th grade have at least basic 
reading skills before moving to the next higher grade. No more 
social promotions.
    The key to systemwide accountability is solid, quantifiable 
evidence on student learning. That is why the Trustees have 
endorsed not only strong standards for D.C., but also a system 
of assessment that provides consistent, reliable data to 
parents, teachers and administrators.
    In releasing preliminary results of last May's Stanford-9 
assessments a few weeks ago, we saw the power of good data to 
mobilize public opinion. District residents were dismayed to 
know that one-third of our 3rd graders are ``below basic'' in 
both reading and math, that 29 percent of 8th graders are 
``below basic'' in reading and that an astonishing, dismaying 
72 percent of 8th graders were ``below basic'' in math. 
Citywide, grade-by-grade results will shortly be released, and 
shortly after that, school-by-school results.
    Part of our charge from the Control Board is to direct 
resources to the level of individual schools. The budget we 
have presented takes a major step in that direction, and our 
academic plan envisions going further, much further. But our 
mandate is not simply to pour more dollars into business-as-
usual schools. Over the past decade, educators have learned a 
great deal about what works and what does not work in 
education. The work of the New American Schools Development 
Corporation, the Edison Project, the Core Knowledge Foundation 
and researchers such as Bob Slavin from Johns Hopkins have 
provided eye-opening new approaches to the education of 
America's children, and those here in the District deserve 
those that are best.
    In the coming years, we will encourage more schools to 
affiliate with these and other effective, research-based 
programs that work. But there is another way in which to 
encourage innovation in the District, and that is through 
charter schools. Although the Emergency Trustees bear no direct 
responsibility for chartering, we have an oversight role as the 
Districts State Board of Education, and our support for the 
charter process is strong. We are also responsible for 
approving policies responding to congressional directives to 
provide a preference for charter school operators in the 
disposition of excess public school property in the District.
    This has not been an easy matter, because Congress has 
asked on the one hand that we maximize the revenues from the 
excess properties through sale or lease, and on the other hand, 
that we help make them available for charter schools. I am 
confident that we will be able to strike the right balance 
between these conflicting purposes very shortly.
    I believe that charter schools are an essential component 
of reform, providing not only fertile ground for trying out 
ideas and innovations that are difficult to introduce 
systemwide, but providing a healthy dose of competition as 
well. As we try to move from a dysfunctional, monolithic school 
system to a lean, responsive system of schools, I believe 
charter schools can and will be an important asset even as we 
focus most of our attention on efforts to raise the standards 
of all of the students in the public schools.
    Thank you very much, Mr. Chairman.
    Senator Brownback. Thank you very much, Mr. MacLaury, for 
your concise statement and for addressing some specific issues 
on the charter schools and on testing. The issue of testing 
came up earlier, and I want to explore that with you a little 
bit further later on.
    General Becton, thank you for coming here today on the 
difficult assignment that you have. I look forward to your 
presentation and some questioning back and forth if we can have 
it. We welcome you to the Committee.
    I might say just at the outset that during the 
reconciliation bill, a number of issues were passed regarding 
the District of Columbia. We tried to deal with the issue of 
economic growth by putting forward a zero capital gains on 
property held for 5 years, and a first-time home buyers credit 
in that bill, and that went through; there was a lot of focus 
on the crime issue and what we are doing for crime control; and 
we focused on prisons and the changes we are making in 
prisons--closing Lorton, privatizing, and trying to get some of 
the prisoners out of the area, which was one of the areas of 
concern.
    It seems to me that we have hit two of the three pegs 
pretty hard and pretty clear lately, on growth and on crime--
and we still need to do more on crime. The school peg is 
another clear one that we have just got to hit well to get 
people coming back into the District of Columbia and making it 
a shining example. This is just a paramount issue, and it falls 
squarely on your shoulders, and I know it has been a tough 
assignment, and I will have some pointed questions about that 
after your testimony.
    Welcome to the Committee, and I look forward to your 
comments.

TESTIMONY OF GENERAL JULIUS W. BECTON, JR.,\1\ (RETIRED), CHIEF 
  EXECUTIVE OFFICER AND SUPERINTENDENT, DISTRICT OF COLUMBIA 
 PUBLIC SCHOOLS, ACCOMPANIED BY MAJOR GENERAL CHUCK WILLIAMS, 
               (RETIRED), CHIEF OPERATING OFFICER

    General Becton. Well, thank you very much, Mr. Chairman. I 
am delighted to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Becton with attachments 
appears in the Appendix on page 88.
---------------------------------------------------------------------------
    You said you know it is a tough assignment. Let me put it 
this way. In my more than 50 years of public service, this is 
the toughest assignment I have ever had, but yet it also has, 
in my judgment, the potential to be the most rewarding, not 
from a personal standpoint, but for the ones whom we are 
serving. So we think we are up to the challenge.
    I welcome the opportunity to appear before you to discuss 
our efforts to improve the District of Columbia public schools. 
As you have already noted, I have with me General Chuck 
Williams, who is the Chief Operating Officer, and he will be 
available to respond. I also have a number of key staffers, 
whom I will introduce as appropriate if there are questions 
that come up in their particular areas.
    Senator Brownback. Good.
    General Becton. As you know, I became the Chief Executive 
Officer through an order by the Control Board. Dr. MacLaury has 
already identified and described that background. Let me just 
comment that the Control Board took this action after 
concluding that, ``in virtually every category and for every 
grade level, by virtually every measure of performance, the 
public school system has failed to provide a quality education 
for all children and a safe environment in which to learn.'' 
That is a devastating comment.
    Indeed, the school system was broken over time in 
fundamental ways. It lacked academic standards, employed 
uncertified teachers, could not pay its bills on time, and had 
crumbling facilities plagued by fire code violations. And no 
one was held accountable.
    Today we operate in a new context of opportunity but face 
the challenges of past failures that mounted over many years. 
This new school year will be a very different one for the 
children and parents of the District. We expect to be held 
accountable for achieving our goals for them.
    I believe that our success or failure will be judged on 
whether or not we achieve fundamental improvement in three core 
areas: (1) academics, (2) school facilities, and (3) personnel 
and financial management systems.
    Our priorities in fiscal year 98 for the core area of 
academics are focused on accomplishing the four goals described 
in our draft 1-year implementation plan, which is attached to 
my written statement--first, improve student achievement by 
adopting world-class standards and providing high-quality 
training. Beginning this year, DCPS will have content and 
performance standards that define what we expect every child to 
learn and to be able to do.
    Second, ensure quality school staff by ensuring that all 
teachers are qualified to teach in their subject areas and 
developing a corps of school leaders with skills to manage 
instructional and fiscal autonomy. This school year, all new 
DCPS teachers will enter our classrooms with the appropriate 
credentials to teach in the area they have been assigned. If 
teachers already employed by the system are not similarly 
credentialed, they will be removed from the work force in 
January of 1998.
    Third, increase accountability through the school system. 
Starting this year, principal evaluations will be tied to 
growth in test scores. Schools with too many students 
performing below basic will be placed on probation. We are also 
ending social promotions. This year, if our children cannot 
read at a basic level in grade 3, they will not move to the 
next grade. In addition, we will ensure an accurate enrollment 
count that is audited.
    And the fourth goal is to promote school restructuring, 
decentralization, and parental choice. This means moving more 
resources to the school level and giving parents greater 
opportunities to choose the schools their children will attend. 
This also means facilitating the development of charter schools 
that will serve as laboratories of change for the entire school 
system. And Dr. MacLaury has already described how we believe 
that that can happen.
    Our priorities for the second core area, school facilities, 
are guided by our Long-Range Facilities Master Plan. The first 
phase of this plan is underway with the emergency roof 
replacements that are essential for schools to remain open 
during school year 1997-1998. While the more than 1,600 fire 
code violations we have already abated would have permitted 
schools to open on time, we opted for a long-term solution. I 
cannot accept doing quick fixes and patches when we know that a 
roof must be replaced. In this respect, we will have all 
program roofs replaced and schools opened on 22 September, 
which is the comment I made to you as you were riding to the 
airport last Friday.
    Regarding personnel and financial management systems, our 
third core area, we have made major improvements. We have 
verified how many staff we have and are realigning them for the 
fiscal year 1998 budget. For the first time, the DCPS budget 
will be constructed around programs--that is, budget amounts 
for each program will be specified, allowing us to hold 
managers accountable for spending. While this may sound like 
common sense, it represents a major accomplishment given that 
funds were previously commingled across programs, allowing for 
no accountability.
    We are focusing resources at the school level. Nearly 90 
percent of the FTEs will be directly assigned to schools. Our 
budget figures for fiscal year 1998 translate into a total per 
pupil expenditure of $7,271 and a local per pupil expenditure 
of $5,923.
    In concluding my statement, I wish to take note of the 
frustration that has been expressed in many quarters. I too 
must admit that at times, I become frustrated. However, the 
problems were piled deep when we arrived, and many remain. My 
job is to look at the 3 years we have and ensure that we 
effectively execute the essential steps to place the school 
system on a firm foundation for continuous improvement. I must 
make the hard decisions necessary for lasting reform. You may 
quarrel with our pace, but I do not believe that you can 
quarrel with our direction or our resolve. Failure to meet the 
needs of the children of this city is not an option.
    Mr. Chairman, this concludes my statement. I am prepared to 
respond to any questions that you may have.
    Senator Brownback. Thank you very much, General.
    The quarrel with the pace is that a child generally does 
not get a shot the second time at the 1st, 2nd or 3rd grade, or 
if they do, in many cases, there have been some failures in the 
system because they get this second shot.
    That is why I press you all the time about how we have to 
move fast on this, because this child does not have a second 
shot at it--and I realize that you are dealing with a large 
institution that has lots of problems, but that drives so much 
of my frustration, because the child does not get a second 
shot.
    General Becton. I agree, and that is why we will be working 
very hard to start helping that youngster from pre-K, K, and 
through the first three grades, because we expect that literacy 
and reading will be paramount to what we will be doing.
    Senator Brownback. Good. Let me start with a series of 
questions if I could. First, you are saying that you will have 
all of the schools open on September 22.
    General Becton. We will have all roofs replaced, and we 
will have schools opened on September 22. If we have, say, on 
September 18, something like what happened to us 2 weeks ago, 
when someone torched one of our schools, it may be difficult to 
get that school opened, but that is what we are faced with.
    Senator Brownback. OK, but absent dramatic consequences 
going against you, you will have all schools open on September 
22?
    General Becton. We will have all schools open on September 
22.
    Senator Brownback. Do you still have to go through a number 
of repairs and clearances by the proper authorities yet on a 
number of these schools?
    General Becton. Yes, we do.
    Senator Brownback. How many schools remain that have 
incomplete repairs and how many need to get clearances from the 
proper authorities?
    General Becton. Well, the smart thing for me to do is let 
Chuck Williams answer that, but let me make a comment first. I 
was out with Chuck Williams yesterday and Saturday as they were 
working full-time, basically around-the-clock, repairing the 
schools--we will have all of the schools' roofs replaced. 
Following that, it is required to have a fire department 
inspection and then to get the judge's clearance. So the fact 
that we have the roofs replaced does not necessarily conclude 
that the process is finished.
    I will ask Chuck to describe how that works.
    General Williams. Good morning, Senator.
    Senator Brownback. Good morning.
    General Williams. We expect to have all of the roofs 
replaced, as General Becton said, in sufficient time to open 
schools on September 22. There is a five-step clearance process 
that takes time. After the contractor represents that the 
building or the facility or the work is complete, we then 
accept the work. Then, of course, that has to be subjected to 
the fire department inspection, to be followed by a court date 
and the judge subsequently clearing it.
    As of this date, we have over 75 percent of the roof 
replacements complete; the others are in the 80 to 90 percent 
completion status. So we feel very confident that the roof 
replacement will be done. And of course, as to the rest of the 
process, we are working around the clock to push those 
clearances as fast as we can.
    Senator Brownback. OK. You have a number of steps to do in 
a 2-week time period, so you are going to have to move, it 
sounds like to me, heaven and earth to get things moving along. 
But it has to be done.
    General Williams. I understand that, Senator, and to that 
extent, we have set up what amounts to an emergency operation 
center in the field, working around the clock. We were there 
this weekend, as General Becton pointed out, and we are doing 
everything we can.
    We are receiving good support from our contractors. They 
worked with us this weekend, realizing the problem. It was a 
massive undertaking, 57 roof replacements, but we are committed 
to getting it done.
    Senator Brownback. I trust, General Becton, that next year, 
we will not be opening the District of Columbia schools late 
and that they will be opened on time--have you projected when 
you will open them next year? Most students across the country 
will have been in school for a month already by the time we 
will be open in the District of Columbia.
    Maybe, Mr. MacLaury, that is a better question for you--I 
do not know.
    General Becton. No, but I will have to turn for help. What 
is the program date for next year? Does anyone have that 
information? If not, we will get it for the record.

                         Insert for the record
          In general, D.C. Public School students begin school each 
        year on the Tuesday following Labor Day.

    The answer is that we have every expectation of having the 
schools open on time. Up until July 10, I had every expectation 
that schools would be open on September 2, too, until I found 
out that we could not have people in a building at the same 
time we are replacing the roof. Because we already replaced six 
roofs this spring with schools in session, so therein lies my 
ignorance that we could not do that.
    Senator Brownback. Well, I do not know if it is the sort of 
thing where you can work on weekends next year to prevent this 
from happening next year; but it just sends a bad signal when 
we cannot open the schools on time.
    General Becton. Senator, believe me, there is no one in 
this city who is more sensitive to that fact than I. I can 
assure you, I am reminded of it morning, noon and night. I can 
also assure you that we are replacing 57 roofs, which has never 
been done in the history of this school system before. It could 
have been done with the schools open--other places do it--but 
we were stopped.
    So yes, I made a mistake, but I think my mistake in 
judgment was based on the information which I had and certainly 
not on something that was sinister.
    Senator Brownback. Well, I guess we will all learn from 
that, and next time around, it will not be a similar situation, 
so we can open them up in a timely fashion.
    Mr. MacLaury. Senator, there is one point that I am sure 
you are aware of, and that is that the schools were not able to 
contract with the roofers until the funds were available to 
them. The reputation of the District of Columbia in terms of 
paying its bills simply made it impossible to get any credit 
with contractors. And we are going to be fighting that kind of 
problem next year--I hope that we can handle it a lot better. 
The capital funds to get the roof work or other capital 
improvements done do not exist as we speak today. They are 
going to be coming out of bond issues of the District and other 
sources of funding. Until we have those dollars in hand and 
ready to spend, we cannot enter into contracts. That is not an 
excuse, but it is a fact.
    Senator Brownback. Are there things that we can do here 
that can help you expedite those?
    Mr. MacLaury. Well, looking at the costs that General 
Williams has estimated for the capital improvements for next 
year--Chuck, correct me if I am wrong--the total amount of the 
bill is something like $200 million for school year 1998. This 
is more money than anybody has. I think the point is only that 
we are going to have to be coming to the Congress as well as 
other places to help us with the capital funding for the 
District's schools.
    Senator Brownback. Associated with that, I am getting some 
questions about the cost of the roof repairs being 
substantially higher than what some people would project as 
market cost. What is the cost based on square footage to repair 
the roofs?
    General Williams. Senator, I would be happy to respond to 
that. We do have a unique situation in the District of 
Columbia. It is running about $11 per square foot. Normally, in 
our neighboring communities, it is anywhere from $6 to $8. But 
we must understand that the District of Columbia has a set of 
unique features with it that impacts contractors--for example, 
the access to the particular site, and the degree of difficulty 
in trying to remove what we have to replace, because some of 
the roofing systems here, because of neglect and lack of 
attention to the problem, have been patched as many as 19 
times. So it is not a simple matter of just removing what would 
be considered an old roof; you have to remove several. So there 
is a degree of difficulty.
    There is the labor situation--Virginia, for example, is 
right to work; D.C. has the Davis-Bacon law--and then, of 
course, there is the bidding environment. The District of 
Columbia and in particular the D.C. public school system had an 
atrocious record on dealing with contractors. They did not pay 
their bills--they did not do anything. So with each one of the 
contractors, I went out personally and called and literally 
begged them to come in and try us on faith. They are doing that 
this time, fortunately, and we are paying them with the money 
we have.
    So that is the difficulty, Senator; it is just that.
    Senator Brownback. General Becton?
    General Becton. I would like to respond to your question 
about what can you do to help us. If we could get a definition 
of fire code violations attached to our appropriations, it 
would sure make a difference to us, because right now, in 
Fairfax County, where I live and where my grandchildren go to 
school, they replace roofs year around. They barricade portions 
of a building to keep youngsters out of certain parts. We can 
do none of those things in the current environment in the 
District of Columbia.
    Senator Brownback. Is this because of local ordinance, or 
is it because of Federal law?
    General Becton. Because of a judge's decision.
    Senator Brownback. Interpreting local ordinance or Federal 
law?
    General Becton. May I ask my general counsel to respond?
    Senator Brownback. Please.
    Please identify yourself.
    Ms. Wirtz. My name is Cecilia Wirtz, and I am general 
counsel for D.C. public schools. The situation which General 
Becton has just described is the result of a court order 
interpreting the local fire code law.
    Senator Brownback. OK. So that if we had a definition in 
the Federal law that would allow you to replace a roof during 
the time that a school is occupied, that would facilitate--or, 
is this a moot issue now, because you are replacing virtually 
all the roofs?
    General Becton. Sir, we have a lot more to go. We have a 
very old system, and we need the legislative relief for the 
future. And we are obviously concerned about safety. We are not 
going to violate the judge's order or put any child in 
jeopardy. But right now, I have not been permitted to have 
principals in the schools since July 11.
    Senator Brownback. Just because of the replacement work?
    General Becton. That is correct.
    Senator Brownback. Well, let us work with you on that to 
see if we can help and facilitate that. We want to review it--
obviously, I do not want to put people in an unsafe position, 
and neither do you, but let us see if we can help with that to 
prevent this from happening again.
    Next, I want to probe if I could some areas that you 
identified, Mr. MacLaury, on testing and replacement. I have 
been concerned, and I do not think we are moving fast enough, 
because the situation is so desperate and so paramount. It just 
seems to me like we have got to move faster.
    We had people testify ahead of you about what happened in 
Chicago in a similar situation, and much of this set-up system-
wide here is modeled after Chicago. There, they went in rapidly 
and quickly and dealt with a number of situations.
    We heard testimony earlier that they released 12 principals 
in Chicago, initially going in and that they went in and did a 
number of rapid changes. I do not know how many you have 
replaced; earlier today, I heard it was three. And I am 
concerned about some news accounts that the one school that had 
attracted so much attention because of the sexual actions by 
the children in the school, the principal retained his 
position.
    What are you doing to change the personnel in schools that 
have not been performing?
    General Becton. Sir, let me clarify the record if I may. We 
did not reappoint eight principals because of their failure to 
do what had to be done. We placed nine principals on probation 
who had demonstrated potential but had not reached the standard 
we thought they should reach, and they will be given additional 
support to either succeed or fail, and we think we are going to 
help them to succeed. We appointed a new group of 23 
principals; many of those were acting principals before, and 
the remainder were reappointed of the group of 146.
    The principal at Winston that you mentioned paid a heavy 
price for his failure to follow instructions. He was not the 
person who permitted the activity in that classroom. He failed 
to follow the procedure for how you report it, who interviews 
whom, and the price he paid was to be right away, as I 
mentioned the last time I was here, suspended without pay. He 
remained suspended without pay until he was reappointed, and he 
was reappointed because of his expertise, the fact that people 
in the community wanted him back, the teachers wanted him back. 
He was a qualified principal, but he made a mistake, and he 
paid for it. I would do that with anyone else who made an 
honest mistake, not dealing with the sexual thing, but dealing 
with procedure.
    Senator Brownback. So you have not hired 8, you have 9 on 
probation and 23 new ones in a total system of how many 
principals?
    General Becton. One hundred forty-six.
    Senator Brownback. One hundred forty-six total.
    And what about teachers--what have you done in that 
category?
    General Becton. I will have to get the numbers. We have 
hired in excess of 500 teachers. May I provide that for the 
record?
    Senator Brownback. Please, or if you have someone there who 
can answer, if they could come forward and identify themselves.
    General Becton. Yes. This is Shelia Graves, the chief human 
resource officer.
    Senator Brownback. Good. How many?
    Ms. Graves. As of last Friday, 550 new teachers.
    Senator Brownback. Five hundred fifty new teachers out of a 
total of how many?
    General Becton. Five thousand three hundred forty-three, or 
something like that.
    Ms. Graves. About 5,400.
    Senator Brownback. How many wanted to be rehired and were 
not because of evaluations in the system? Can you give me that?
    Ms. Graves. I can tell you that there were about four who 
were not rehired because of positive TB tests, and three more 
were not hired or terminated after rehiring because of negative 
background information.
    General Becton. That is from a personnel standpoint. I 
would like to provide that specific information for the record.
    Senator Brownback. How many were not rehired because of 
competency or just not producing the results?
    General Becton. That is what I would like to provide for 
the record.
    Senator Brownback. Yes, please, if you would.
    [Information follows:]
                         Insert for the record
          ``No teacher has been dismissed on the basis of poor 
        performance since this administration was put into place in 
        November 1996. However, several have been terminated for cause 
        for other reasons, which are discussed above. Beginning in the 
        current school year, DCPS principals, who are directly 
        responsible for supervising and evaluating teachers, will be 
        subject to a new evaluation system through which they will 
        specifically be held accountable for their performance in this 
        area. Under the new system, principals will be evaluated on the 
        basis of five criteria. The first and most important criterion, 
        of course, is academic achievement. Two of the other five 
        criteria--human resource management and leadership--speak to 
        the issue of selecting and developing quality staff, providing 
        staff development where needed, and using the teacher 
        evaluation process to weed out those teachers who should not be 
        in our classrooms. The new system is being communicated to 
        principals now and will be implemented system wide this school 
        year.''

    Senator Brownback. OK, because it does not sound like you 
have any or very many for those reasons, for competency, and I 
want to check on that.
    General Becton. I go back to the statement I made at the 
opening about holding people accountable. We really had no 
accountability on the part of the teachers or the principals 
when they arrived, and we are establishing that now. Part of 
the baseline for that will be our test scores that Dr. MacLaury 
mentioned. We now have a base from which we can measure the 
teachers as to how well they are doing. And those teachers who 
can demonstrate through their students that they are competent 
will be continued; those teachers who cannot, we are holding 
the principals directly accountable for their teachers and 
holding the principals accountable for what happens inside the 
classrooms in terms of academic standards.
    Senator Brownback. How long will a teacher have to produce 
whatever you determine as adequate test scores from the 
students? Will they have 1 year?
    General Becton. It will be 1 year, because we tested in 
May, and the results will be given to the principals, and we 
will also have results for the students, the teachers and the 
schools. That information will be made available to them when 
they start on September 22. We will test again next May. We 
therefore have it benchmarked at a point which they may have 
reached.
    Senator Brownback. What will be a failing benchmark, or 
have you established that yet?
    General Becton. We just brought on today our chief academic 
officer, and I really do not want to put her on the spot----
    Senator Brownback. This is a good way to welcome her--
putting her in front of a Subcommittee.
    General Becton. No, I am not going to put her before you. 
The point is that I want to really sit down and work with her 
before we give you something definitive. I can assure you that 
we will have a way to measure that.
    Senator Brownback. There was concern in the last panel that 
you are not testing enough on the basics, that you are doing 
one set of standardized tests, but in Chicago, they had more 
testing along the lines--if I am getting my testimony correct--
of reading and mathematics. Are you putting in more testing 
requirements, Dr. MacLaury?
    Mr. MacLaury. Again, General Becton will be able to answer, 
but the fact is that this past year, the Stanford-9 test was 
given. It was given in math, it was given in reading, across a 
number of grades. Therefore, we have now, as of May, baseline 
data which will be available--within the next month or so--
school-by-school, and indeed, child-by-child. The purpose of 
tests is not to fail children, obviously, but to assist them 
and to help provide teachers with the kind of knowledge their 
classes need.
    I believe, personally--and I am not an expert in this 
area--that the Stanford-9 tests, which are nationally-normed, 
and competency-based, give us a profile for each class of 
``below basic,'' ``basic,'' ``proficient,'' and ``advanced,'' 
so that teachers will know that information and, more to the 
point, be able to work with their students. I think we have the 
tools now for the first time to use for diagnostic and 
instructional purposes. I do not think we need more.
    Senator Brownback. Was May the first time those have been 
conducted in the D.C. public schools?
    Mr. MacLaury. For 13 years, the CTBS, the Comprehensive 
Test of Basic Skills, was used, and I am told that exactly the 
same exam was given year after year after year, so that it was 
compromised, and, from my point of view, useless.
    General Becton. May I point out that we are starting out 
with basic skills of math and reading, and in the testing that 
Bruce mentioned, in reading, we tested grades 1st through 11th; 
in mathematics, we tested grades 3rd, 6th, 8th and 10th.
    Senator Brownback. And you will be releasing those grade-
by-grade and school-by-school?
    General Becton. And child-by-child----
    Mr. MacLaury. No, not child-by-child; school-by-school.
    General Becton. No, I did not mean they would be released 
child-by-child, but that information will be available.
    Senator Brownback. I understand--to the parents----
    General Becton. To the teachers.
    Senator Brownback [continuing]. Teachers and parents. And 
you will be releasing that information when?
    Ms. Jones. I am the interim and acting chief academic 
officer, Helena Jones just identified--in about 3 weeks.
    Senator Brownback. Very good. I think that that is critical 
to have out and in the public for people to be able to see--is 
the school my child is going to succeeding or failing?
    General Becton. We agree.
    Senator Brownback. To me, it is like going into a grocery 
store and seeing what is in the product. We require that 
adequate labeling. I think this is a basic, and I am delighted 
to hear that you are getting it out there. And I think that at 
first, there is going to be a lot of screaming about it, but my 
goodness, this is just basic information that people need to 
have to be able to exercise their choice within the D.C. public 
schools and asking, ``do I want to go somewhere else''--and for 
you to be able to evaluate.
    General Becton. We are trying to set the standards and 
provide the information which will cause the public to 
recognize that we are making a difference. But there will be a 
large hue and cry come next May, when a number--which will 
surprise people--of youngsters do not pass because they have 
not mastered the skills to get beyond third grade.
    What we intend to do, about halfway through this school 
year, is to let the parents know, based upon the teacher's 
assessment, where that child may be, so that the parents can do 
more to help their children.
    Senator Brownback. So you look for potentially a number of 
children not to pass this year.
    General Becton. If what has been stated in the past is 
correct, yes--not because we were not making the effort, but 
because there are some people, including parents and community, 
who I suspect are sitting back and saying, ``I have heard that 
before; there they go.'' We are going to hold to those 
standards.
    Senator Brownback. Good. I think you should. We have to 
establish standards and live by them. I think it also applies 
for teachers, and I hope you put teachers to a high standard 
and require that they meet that, or adverse actions will occur.
    General Becton. I think you can rest assured that that is 
going to happen.
    Senator Brownback. Good, because I look at each of these 
children as you do. Each is a precious life, and they are 
entitled to every possibility they can have. We cannot fail 
them by having a systems failure taking place. And I realize 
that what you are proposing can be pretty harsh on teachers, on 
principals, possibly on the social standing, I guess you could 
put it, of some students if they are not passing on through and 
the rest of their grade goes, but I think you have to establish 
good, strong standards and then stand by them.
    General Becton. On a personal note, we have five grown 
children in my family. All five went to school in the District 
of Columbia. Two of them graduated, and of course, my movement 
in and out caused some of them not to go completely through. I 
have 10 grandchildren and 3 great-grandchildren. Believe me, I 
am very sensitive to the subject of education for our 
youngsters.
    Mr. MacLaury. And I think, Mr. Chairman, if I may, that one 
of the keys is not just the testing and the standards, it is 
how much support the schools can provide. You cited Chicago. 
They, too, have gone to a ``no social promotion'' policy, and 
they have had summer school as a fallback. Youngsters in 
certain grades who do not get through the gates are required to 
go to summer school. We are going to have to do the same thing. 
It is costly. The real test is not how many failed, but how 
many you can bring to success. That is what this game is about.
    Senator Brownback. Will you be providing summer schools 
next summer?
    General Becton. We will be providing summer schools. We 
will also be providing Saturday academics for those who we 
identify need additional help. We have tutors and mentors who 
will be helping out. We have, to borrow an expression, a ``full 
court press'' to make that happen. But it is also going to take 
parental involvement and community involvement to make it 
happen so that every child has that chance.
    Senator Brownback. On charter schools, Dr. MacLaury, you 
testified as to your support for charter schools. We have 
gotten a little conflicting testimony today on the number that 
have been opened in the District of Columbia. Someone said 
four, somebody else said two.
    Mr. MacLaury. My understanding, Senator, is that the 
previous elected school board granted charters to I believe 
five schools. Of those, only two opened this past year. Two 
more of those five are, I believe, intending to open this fall, 
and I think the fifth has withdrawn, but I am not sure about 
that. There were only two operating charter schools this past 
year.
    Senator Brownback. And some suggestions that one needs to 
be closed. Do you have any comment regarding that?
    Mr. MacLaury. That is an issue for the elected school board 
which chartered that school, the Marcus Garvey School. The 
school board chartered that school last year, and the school 
board has to make a tough decision on whether to keep that 
school in operation.
    Senator Brownback. It strikes me that it has been awfully 
slow going on the charter schools. Some people looked up how 
many Chicago has, and they have 10 charter schools in Chicago, 
where the law passed at the same time as the D.C. Charter 
School law. And I do not know the size, the scale, the scope of 
those schools.
    I continue to receive a substantial number of complaints 
that the bureaucracy is trying to crush the charter school 
movement in the District of Columbia, that they are being 
crushed by the system, they are not being approved on time, 
they are not being supported.
    Dr. MacLaury, you opened with a strong statement of support 
for charter schools. We had testimony earlier that we need to 
establish time lines and baselines for the establishment of 
charter schools, and Jeanne Allen suggested that we should have 
20 open by the fall of 1998. I do not know which of you would 
care to respond to those statements as far as what you would 
like to see happen to move the charter school movement along a 
little more aggressively.
    General Becton. I would like to make a statement, and then 
I would like the person who used to be on that side, not 
working for us, to comment as to where the charter schools are 
today--that is Rich Wenning.
    The charter approval cycle is underway. The public charter 
board developed an excellent application, and proposals are due 
September 15. The approval cycle is off to a much better start 
than last year, and we expect 10 to 20 schools to be approved 
between November and January.
    We are setting up a revolving loan fund with a $200,000 
annual contribution. We are seeking additional start-up funding 
for charter schools. We requested a $6 million grant from the 
Department of Education, and I'll ask Rich, if I may, to 
explain where we are beyond that point.
    Senator Brownback. Please.
    General Becton. Richard?
    Senator Brownback. And please identify yourself for the 
record.
    Mr. Wenning. I am Richard Wenning, Director of Policy for 
the D.C. Public Schools, and I handle charter schools. A lot of 
folks are frustrated by the pace. The charter schools in the 
District of Columbia are very much in their infancy. Things got 
off to a rocky start last year, as you know. This year, things 
are moving along quite well. As General Becton said, the Public 
Charter Board does have an outstanding application together. 
They will be approving schools in November, so during the 
November to January time line, we are probably looking at about 
10 to 20 charter approvals, and we are going to continue to 
facilitate that process. With the start-up funds that we will 
be getting from the Department of Education, we will be able to 
provide funds early to charter schools, before September, so 
they have some money to hire staff with and get started. In 
addition, the revolving loan fund is going to provide some 
additional funds as well.
    We are laying new groundwork at DCPS with charter schools. 
Implementing a congressional law is difficult, and we are 
putting together the guidance to do that, and we are confident 
that we are going to have a good chartering process this year.
    Senator Brownback. So you think that you will be somewhere 
between how many charter schools next fall?
    Mr. Wenning. Between 10 and 20.
    Senator Brownback. Ten and 20 charter schools approved next 
year. It seems to me that you have the opportunity for some 
grand charter schools in the District of Columbia, given some 
of the institutions that are here. I do not know if they are 
willing to do it, but a National Geographic Society-associated 
charter school would be a pretty interesting place, with a lot 
of selling power to it, I would think.
    Are you getting some proposals along those types of lines?
    Mr. Wenning. I have not heard from National Geographic. But 
it is important to note that, of course, the two chartering 
authorities may also be getting information from some of these 
organizations. We have had some conversations with the 
Smithsonian. There is a great deal of interest; there are great 
resources in this city. What is very important, though, is that 
all the applications for charters go through a rigorous review 
process to ensure that we have high-quality schools approved, 
with accompanying strong oversight.
    Senator Brownback. Do we need to establish some time lines 
for the approval process, or are these pretty firm ones that 
you have given me today of times and numbers for approval?
    Mr. Wenning. Well, there are time lines in the current 
statute, and the Public Charter Board had some difficulty 
getting started; I know they have submitted some language to 
the appropriators and I believe to your staff. And I think that 
with a few tweaks, the schedule should work quite well.
    Senator Brownback. Good. Thank you very much.
    General Becton. Mr. Chairman, it sounds as though there may 
be an impression that DCPS controls this process--and we really 
do not. Maybe we need to clarify the fact that the Trustees and 
DCPS do not approve charter schools. That is done by the 
chartering agency, and there are two of those.
    Senator Brownback. The point in raising it here is that if 
we have to do something to make sure that the bureaucracy does 
not kill this, then I am going to be looking at doing that. I 
think this is an important concept; it is one that you are 
supportive of. In operating the current system, if there are 
difficulties in doing that, or the bureaucracy is, for whatever 
reason, causing slowness in it, then maybe we need to engage 
and force that along more.
    General Becton. I would encourage that at least 
consideration be given to expanding in legislation my role as 
the chief State education officer. I have four titles, and that 
is one of them. In every State, there is a person or a board 
that has responsibility to ensure monitoring and to ensure 
certification and all those things that are important so that 
they all comply with the same single requirement.
    Today we have the public charter agency and the D.C. Board 
of Education, which also has charter responsibility. And 
technically, while I have stated we are the State education 
officer, it would be helpful if there were some legislation 
clearly charging me with that responsibility. We might 
therefore be able to do what you would like to see done.
    Senator Brownback. That is a good proposal. We will look at 
that and see if it is something that would help move that 
process further along. There is going to be legislation coming 
forward on D.C. public schools regarding the scholarship 
program that Senators Coats, Lieberman and myself have 
introduced here. As you know, that does not take any funds away 
from the D.C. public schools, but provides it in addition to, 
and Representative Armey testified earlier today about that as 
a concept that would be offered to certain income categories of 
students.
    We believe strongly that competition is an important 
factor, and that choice is important, too, and that this can be 
a positive step forward. I hope you will look at those as just 
that--this is what we are trying to do to provide additional 
options for people who frequently cannot afford them. Most 
Members of Congress--I should not say ``most''--but many 
Members of Congress take their children to private schools, and 
they have that option because of their income category, whereas 
a lot of people in the District of Columbia do not, and we feel 
like they should have that available.
    So it is not a statement toward you, but it is a statement 
to the kids, to try to provide some of those options for them. 
I hope you will be able and willing to work with that system 
where we are able to get it in place as a scholarship program.
    General Becton. Well, obviously, Mr. Chairman, we will work 
with whatever law comes out. I think we are the only school 
board that you have to tell what to do----
    Senator Brownback. That is true.
    General Becton [continuing]. So clearly, we understand 
where the money comes from. But let me point out, sir, that we 
have not developed a position on the legislation--when I say 
``we,'' I am talking about the Board of Trustees, wearing 
another hat that I wear--but I do have one or two concerns. I 
am charged with the responsibility for the education for all of 
our children--not 4,000, 400, or whatever may benefit from the 
scholarships, but all of them. My concern is that when you say, 
grant scholarships, vouchers, whatever you want to call them, 
to a group, I still have to raise the standards of those left 
behind. So I hope that you can understand that as I deal with 
all of the students, that is my primary concern. Last week, a 
member of the House Subcommittee, Duke Cunningham, asked me the 
question, ``Could you support a bill that was the result of a 
referendum that the public voted to go vouchers.'' Obviously, 
if the public says that is what they want, we have no choice 
but to do that. But right now, I am still faced with raising 
the education standards for all of our students.
    Senator Brownback. And that is what all of us want to do. 
Some may look at it and say this does not do it; others may say 
competition has been such a key factor in the U.S., in making 
this a great Nation, that it should apply as well in public 
education and that that is what we are about. Representative 
Armey testified earlier, saying that is exactly what it is 
about--it is about raising the whole--it is about a rising tide 
lifting all ships and having competition being a key force in 
doing that. That is the basis of that scholarship program.
    I personally would like to see just a wide open school 
choice program, where the child and his parents decide where 
they would like to go to school, and the public schools be in 
such a position that they are so competitive and so good that, 
by and large, that is the place chosen. That is what I would 
like to see.
    General Becton. And we want to make it very tough for that 
parent to make up his mind because our schools have reached the 
standard that they would consider that, hey, this is not a bad 
idea.
    Senator Brownback. We want to push that day as quick as 
possible, just so that more and more children get a higher and 
higher quality of education because there is competition within 
the system to try to encourage that.
    General Becton. Yes.
    Senator Brownback. So you are going to continue to see 
moves out of this Congress to do that, whether it is a 
scholarship program, trying to open up to full school choice, a 
voucher type of system, because that is the way that child then 
chooses. And I hope you are in a position where the D.C. public 
schools get the vast majority of students because they say 
these are the best schools. That is what we all want.
    General Becton. We are striving for that.
    Senator Brownback. And we are going to keep pushing you on 
it, too.
    Dr. MacLaury.
    Mr. MacLaury. Mr. Chairman, I think both of us here share 
your belief in competition and in choice for the schools. There 
is now choice among public schools, as you know. And from my 
point of view, personally, giving the charter effort the 
biggest opportunity to get underway and get going is where my 
emphasis would be with respect to this element of choice. I do 
not want a distraction from another kind of effort.
    My concern is also that there needs to be a different, 
separate administration for the awarding of these scholarships 
if that comes to pass. The public schools should not have 
anything to do with the awarding of those scholarships. I think 
that is an issue--administratively, how many different kinds of 
choice can the District and its administrative units cope with. 
That is something that at least I would like to keep in mind.
    Senator Brownback. It is a fair point. It is just that the 
school system is in such meltdown that there need to be some 
radical and quick changes.
    Mr. MacLaury. Yes, I understand.
    Senator Brownback. And General, I appreciate your 
identifying this as the toughest assignment you have ever had. 
I believe it is, and you have got to succeed--you have got to.
    General Becton. My last statement, sir, was that failure is 
not an option.
    Senator Brownback. Very good. Thank you all for coming and 
joining us today. We may well try to have another hearing in 6 
months or so to monitor the progress that is coming along, and 
we will keep working for the good of the kids.
    With that, the hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] TH364.001

[GRAPHIC] [TIFF OMITTED] TH364.002

[GRAPHIC] [TIFF OMITTED] TH364.003

[GRAPHIC] [TIFF OMITTED] TH364.004

[GRAPHIC] [TIFF OMITTED] TH364.005

[GRAPHIC] [TIFF OMITTED] TH364.006

[GRAPHIC] [TIFF OMITTED] TH364.007

[GRAPHIC] [TIFF OMITTED] TH364.008

[GRAPHIC] [TIFF OMITTED] TH364.009

[GRAPHIC] [TIFF OMITTED] TH364.010

[GRAPHIC] [TIFF OMITTED] TH364.011

[GRAPHIC] [TIFF OMITTED] TH364.012

[GRAPHIC] [TIFF OMITTED] TH364.013

[GRAPHIC] [TIFF OMITTED] TH364.014

[GRAPHIC] [TIFF OMITTED] TH364.015

[GRAPHIC] [TIFF OMITTED] TH364.016

[GRAPHIC] [TIFF OMITTED] TH364.017

[GRAPHIC] [TIFF OMITTED] TH364.018

[GRAPHIC] [TIFF OMITTED] TH364.019

[GRAPHIC] [TIFF OMITTED] TH364.020

[GRAPHIC] [TIFF OMITTED] TH364.021

[GRAPHIC] [TIFF OMITTED] TH364.022

[GRAPHIC] [TIFF OMITTED] TH364.023

[GRAPHIC] [TIFF OMITTED] TH364.024

[GRAPHIC] [TIFF OMITTED] TH364.025

[GRAPHIC] [TIFF OMITTED] TH364.026

[GRAPHIC] [TIFF OMITTED] TH364.027

[GRAPHIC] [TIFF OMITTED] TH364.028

[GRAPHIC] [TIFF OMITTED] TH364.029

[GRAPHIC] [TIFF OMITTED] TH364.030

[GRAPHIC] [TIFF OMITTED] TH364.031

[GRAPHIC] [TIFF OMITTED] TH364.032

[GRAPHIC] [TIFF OMITTED] TH364.033

[GRAPHIC] [TIFF OMITTED] TH364.034

[GRAPHIC] [TIFF OMITTED] TH364.035

[GRAPHIC] [TIFF OMITTED] TH364.036

[GRAPHIC] [TIFF OMITTED] TH364.037

[GRAPHIC] [TIFF OMITTED] TH364.038

[GRAPHIC] [TIFF OMITTED] TH364.039

[GRAPHIC] [TIFF OMITTED] TH364.040

[GRAPHIC] [TIFF OMITTED] TH364.041

[GRAPHIC] [TIFF OMITTED] TH364.042

[GRAPHIC] [TIFF OMITTED] TH364.043

[GRAPHIC] [TIFF OMITTED] TH364.044

[GRAPHIC] [TIFF OMITTED] TH364.045

[GRAPHIC] [TIFF OMITTED] TH364.046

[GRAPHIC] [TIFF OMITTED] TH364.047

[GRAPHIC] [TIFF OMITTED] TH364.048

[GRAPHIC] [TIFF OMITTED] TH364.049

[GRAPHIC] [TIFF OMITTED] TH364.050

[GRAPHIC] [TIFF OMITTED] TH364.051

[GRAPHIC] [TIFF OMITTED] TH364.052

[GRAPHIC] [TIFF OMITTED] TH364.053

[GRAPHIC] [TIFF OMITTED] TH364.054

[GRAPHIC] [TIFF OMITTED] TH364.055

[GRAPHIC] [TIFF OMITTED] TH364.056

[GRAPHIC] [TIFF OMITTED] TH364.057

[GRAPHIC] [TIFF OMITTED] TH364.058

[GRAPHIC] [TIFF OMITTED] TH364.059


                                  <all>
</pre></body></html>
